<html>
<title> - CRIB SAFETY: ASSESSING THE NEED FOR BETTER OVERSIGHT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
          CRIB SAFETY: ASSESSING THE NEED FOR BETTER OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2010

                               __________

                           Serial No. 111-92


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-004                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
BRUCE L. BRALEY, Iowa                GREG WALDEN, Oregon
  Vice Chairman                        Ranking Member
EDWARD J. MARKEY, Massachusetts      ED WHITFIELD, Kentucky
DIANA DeGETTE, Colorado              MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas
DONNA M. CHRISTENSEN, Virgin 
    Islands
PETER WELCH, Vermont
GENE GREEN, Texas
BETTY SUTTON, Ohio
JOHN D. DINGELL, Michigan (ex 
    officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     4
    Prepared statement...........................................     6
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................    11
    Prepared statement...........................................    13
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    16
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    17
    Prepared statement...........................................    19
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    21
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    87
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    90

                               Witnesses

Susan Cirigliano, mother of Bobby Cirigliano; accompanied by 
  Robert Cirigliano..............................................    22
    Prepared statement...........................................    24
Nancy A. Cowles, Executive Director, Kids in Danger..............    34
    Prepared statement...........................................    37
Michael Dwyer, Executive Director, Juvenile Products 
  Manufacturers Association......................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   126
Inez Moore Tenenbaum, Chairman, Consumer Product Safety 
  Commission.....................................................    66
    Prepared statement...........................................    69
    Answers to submitted questions...............................   131

                           Submitted Material

Letter of January 21, 2010, from Consumers Union to the 
  Committee, submitted by Mr. Stupak.............................    93
Document binder..................................................    95


          CRIB SAFETY: ASSESSING THE NEED FOR BETTER OVERSIGHT

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Bart 
Stupak [Chairman of the Subcommittee] presiding.
    Members present: Representatives Stupak, Braley, 
Schakowsky, Christensen, Green, Sutton, Walden, and Burgess.
    Staff present: Bruce Wolpe, Senior Advisor; Alison Cassady, 
Professional Staff Member; Michelle Ash, Chief Counsel, 
Commerce, Trade, and Consumer Protection; Will Cusey, Special 
Assistant; Dave Leviss, Chief Oversight Counsel; Ali Golden, 
Professional Staff Member; Erika Smith, Professional Staff 
Member; Ali Neubauer, Special Assistant; David Kohn, Press 
Secretary; Elizabeth Letter, Special Assistant; Alan Slobodin, 
Chief Counsel for Oversight; Krista Rosenthall, Minority 
Counsel; Kevin Kohn, Minority Professional Staff Member; and 
Brian McCullough, Minority Professional Staff Member.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Good morning. We are going to begin this 
hearing, the Subcommittee on Oversight and Investigations.
    Our hearing today is entitled ``Assessing the Need for 
Better Oversight on Crib Safety.'' Members will be recognized 
for opening statements. I will begin.
    Today we are here to answer a painful and difficult 
question: Are we doing enough to protect infants and toddlers 
from injuries and death in their cribs? Most experts agree that 
the safest place for an infant to sleep is in a properly made 
crib that meets the highest safety standards. Babies sleeping 
on their backs in the crib with a firm mattress and without 
soft bedding are less likely to die from SIDS or accidentally 
suffocate. Our work today is critical because of the unique 
nature of a baby crib. As we will hear from our witnesses, a 
baby crib is the only product designed expressly so parents can 
leave their child unattended for a long period of time and be 
confident that their child will be safe. It is reasonable for 
parents to expect that the crib they purchase meets safety 
standards enforced by a strong regulator. Unfortunately, this 
Subcommittee has learned that those reasonable expectations of 
crib safety have not been met.
    The Consumer Product Safety Commission, CPSC, the 
government agency tasked with keeping consumer products safe 
for Americans, has recalled millions of cribs in recent years 
after investigating reports of broken and defective crib 
hardware, dropped sides that detach and poor wood quality. What 
is most shocking is that all these recalled cribs were 
certified as meeting the industry's voluntary safety standards. 
The crib recalls raise questions about the effectiveness of the 
current regulations and leave some parents who doubt whether 
any crib on the market in safe.
    In November of 2009, the CPSC announced the recall of more 
than 2 million Stork Craft drop-side cribs, the largest crib 
recall in U.S. history, and just this Tuesday, the CPSC 
announced yet another voluntary recall involving 635,000 drop-
side and fixed-rail cribs manufactured by Dorel Asia 
Corporation. Congress instructed the CPSC to revisit its safety 
standards for cribs under the Consumer Product Safety 
Improvement Act of 2008. CPSC is prepared to meet that 
obligation. Our hearing will detail the recent crib recalls and 
consider how CPSC plans to prevent cribs with significant 
defects from entering the market. We will also examine 
industry's role in ensuring that their products are safe and if 
crib standards are designed to keep consumers safe.
    Today we will hear specifically about the safety concerns 
of drop-side cribs. A drop-side crib allows a parent to raise 
and lower the front of the crib for easy access to their baby 
as opposed to a fixed-rail crib, which has four sides that do 
not move up or down. According to the Juvenile Products 
Manufacturers Association, retailers sold approximately 500,000 
full-sized cribs in 2008, of which 15 to 20 percent had drop 
sides. Since 2005, the CPSC has announced more than 30 recalls 
of 7 million cribs for a variety of safety problems, many of 
them involved drop sides. CPSC experts have found that mattress 
support brackets and drop-side hardware can break, deform or 
are lost. Design flaws permit consumers to intentionally or 
unintentionally install the drop-side railing upside down, 
putting unintended stress on the crib hardware. Many different 
problems can cause the drop side to detach, creating a 
dangerous gap between the crib railing and the crib mattress. 
As this simulated picture from the CPSC shows--it should be up 
here on our screen--in some cases the body of an infant or 
toddler can become trapped in the space and a child can 
suffocate.
    Since 2007, the CPSC has issued recalls involving millions 
of drop-side cribs sold by different manufacturers. The CPSC 
has issued four recalls of drop-side cribs manufactured by 
Simplicity after receiving reports of dozens of incidents 
involving several deaths. In October 2008, the CPSC recalled 
nearly 1 million Delta brand drop-side cribs. The CPSC issued 
two recalls in 2009 of Stork Craft drop-side cribs for problems 
associated with the brackets that hold the mattress in place 
and problems with the cribs' plastic hardware. The CPSC linked 
four deaths associated with Stork Craft faulty cribs. In 
November 2009, a recall involved more than 2 million cribs, the 
largest crib recall in U.S. history.
    The fact that most recalls have involved cribs that were 
built in compliance with current voluntary safety standards 
shows that our system for measuring and ensuring and enforcing 
crib safety is not working. The Juvenile Products Manufacturers 
Association, a national trade association representing more 
than 250 companies, certified that Simplicity, Delta and Stork 
Craft cribs involved in each of these recalls met all U.S. 
standards and voluntary industry standards. The JPMA gave these 
cribs their seal of approval. Unfortunately, neither the 
mandatory nor the voluntary standards were or are strict 
enough. JPMA will be testifying at today's hearing, and I look 
forward to learning more about what the crib industry must do 
to improve its safety record.
    In November 2008, the CPSC acknowledged that the mandatory 
and voluntary standards do not include adequate performance 
requirements for durability of drop-side crib hardware, the 
strength and quality of the wood used to make the cribs, and 
the utility and clarity of crib assembly instructions. I look 
forward to the CPSC chairperson's testimony today about what 
the Commission can do to develop and enforce stronger crib 
safety standards.
    Today we will also examine the November recall of 2 million 
Stork Craft drop-side cribs as a case study on the need for 
better regulation and oversight of crib safety. First, what can 
Congress, the CPSC and crib manufacturers learn from these 
massive recalls? And second, how does the CPSC plan to address 
the ongoing safety problems with drop-side cribs under its 
rulemaking authority? The CPSC has the legal authority to 
tackle this problem and restore American consumers' confidence 
in the safety of cribs. Because of the work of some of the 
members of this Subcommittee, particularly Congresswoman 
Schakowsky, the Consumer Products Safety Improvement Act 
requires the CPSC to study and develop safety standards for 
durable nursery products including full-sized cribs. The Act 
directs the CPSC either to accept the existing voluntary safety 
standards for these products and make them mandatory or provide 
a stricter federal safety standard.
    Our hearing today consists of three panels of witnesses. 
First we will hear from Mrs. Susan Cirigliano, who lost her son 
Bobby in 2004 when the drop side of Bobby's crib detached and 
he suffocated. Mrs. Cirigliano and her husband have been 
working to ban drop-side cribs in New York State. Second, we 
will hear from Michael Dwyer of the Juvenile Products 
Manufacturers Association, and Nancy Cowles of Kids in Danger, 
a consumer organization founded in 1998 by the parents of a 
toddler who died when a portable crib collapsed around his 
neck. These witnesses will be able to share their perspectives 
on crib safety, consumer protection, and comment on CPSC's 
rulemaking authority. And finally, we will hear from the 
chairperson of the Consumer Product Safety Commission, Inez 
Moore Tenenbaum.
    I want to thank all of our witnesses for participating in 
today's hearing. Particularly, I want to thank the Ciriglianos 
for their time, their testimony, traveling from New York to 
share their personal tragedy with us and the American people.
    In preparation for this hearing, the Subcommittee requested 
and received documents from the Consumer Product Safety 
Commission and the Juvenile Products Manufacturers Association. 
The CPSC and the JPMA have been very cooperative with the 
Subcommittee document request and produced ten of thousands of 
pages of documents over the holidays. I appreciate their 
cooperation with this important inquiry. In addition, the 
Subcommittee requested documents from Stork Craft, a Canadian-
based crib manufacturer whose drop-side cribs were the subject 
of the largest recall in CPSC history. Stork Craft has pledged 
its cooperation, and just yesterday provided the Subcommittee 
with its first submission of some responsive e-mails. I urge 
Stork Craft to cooperate fully and complete its production of 
documents promptly. Stork Craft will not be testifying here 
today but we look forward to reviewing their submissions, the 
documents they submitted yesterday, and reserve the right to 
schedule an additional hearing if necessary to bring Stork 
Craft here and to explain their role in the recall process and 
its responsibility to ensure the safe manufacture of cribs.
    With that, I will yield back the balance of my time.
    I would next like to turn to the ranking member of this 
Subcommittee, Mr. Walden of Oregon, and they have been very 
cooperative. We have worked well on this one and I think we may 
have future hearings, but Greg, thanks for your efforts on this 
issue.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Bart, and I appreciate your holding 
this hearing and the work that both sides have done on this 
issue. I first want to mention that I am also scheduled to be 
in a Telecommunications Subcommittee markup session that is 
going on right now. We are actually voting on a couple of 
bills, so I may have to step out and go down to that committee 
and then I will return.
    I want to extend a warm welcome to the Ciriglianos. We 
really feel awful about the loss that you have suffered. It is 
unthinkable and it is the last thing any parent wants to go 
through, and so you have our deepest condolences and sympathy. 
Thank you for traveling here. Thank you for telling us your 
story. We look forward to your testimony, admire your courage 
and your willingness to speak up and make a difference in 
public policy.
    The U.S. Consumer Product Safety Commission is charged, as 
you have heard from my colleague, with protecting the public 
from unreasonable risk of serious injury or death from 
thousands of products. Infant cribs are one of the products 
under CPSC's jurisdiction and a major focus of that agency. The 
Commission has acted in the past several months to recall 
millions of drop-side cribs. Today we have an opportunity to 
examine the recall process and product integrity questions 
raised by the latest Stork Craft brand crib recall and 
understand the roles of the company, the agency and the 
consumer play in ensuring the effectiveness of the recall and 
keeping children safe. Our goals here today are first to 
identify the strengths and weaknesses of the current system, 
and second, to discuss possible solutions to improve safety and 
oversight while still allowing access to a wide range of 
products with the assurance of the public's safety. We will 
also consider the ASTM international standards specifically for 
crib manufacturers that were released in December of last year. 
ASTM is an entity that develops technical product standards 
that guide the CPSC's evaluation of products. We will want an 
assessment from our witnesses of whether the new ASTM standards 
will eliminate or significantly reduce the risk of serious 
injury.
    I welcome CPSC Chairman Tenenbaum and look forward to her 
statement and the opportunity to ask questions. I am anxious to 
hear if and when the Commission will adopt the ASTM standard, 
and if not, why not. I am also interested in learning about the 
complex matrix the agency uses to determine when a certain 
number of isolated consumer complaints and incidents evolve 
into a full-blown investigation and lead to an ultimate product 
recall.
    Congress has not been inactive when it comes to increasing 
federal regulation of juvenile products and increasing the 
effectiveness of product recalls. The Consumer Product Safety 
Improvement Act of 2008 addresses several of these issues that 
bring us here today. Ms. Tenenbaum will be able to talk about 
the new authorities of the Commission that they have under 
CPSIA including new rulemaking procedures that allow the agency 
to revise its mandatory product standards more easily, new 
product registration programs and increases in the agency's 
budget. With the implementation in the last Administration of 
the early warning system, the CPSC staff and previous 
Commission leadership were already increasing their 
surveillance of cribs, bassinets and play yards. This system 
helped trigger the recalls of millions of cribs since that 
time. I hope the chairwoman will talk about this system and how 
it can be expanded, strengthened, improved under the new 
leadership of the Commission.
    Since medical experts agree the safest place for an infant 
to sleep is in a crib, I want to know what we can do to 
increase consumer confidence in these products to ensure that 
parents are not discouraged from purchasing a crib at all. The 
consumer, the companies that manufacture these products, CPSC 
and Congress must work together to improve communications and 
quickly yet thoroughly respond to products that may pose a 
threat. I do hope that as we move forward, the CPSC will be 
able to maintain a strong level of collegiality amongst its 
five commissioners and that both Republicans and Democrats will 
work together to ensure that the CPSC effectively and wisely 
uses its new and additional resources and authorities to 
improve crib and product safety.
    Thank you, Mr. Chairman. I look forward to the witnesses, 
and again at some point I will have to step out for this other 
markup.
    [The prepared statement of Mr. Walden follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.001
    
    [GRAPHIC] [TIFF OMITTED] T6004A.002
    
    [GRAPHIC] [TIFF OMITTED] T6004A.003
    
    [GRAPHIC] [TIFF OMITTED] T6004A.004
    
    [GRAPHIC] [TIFF OMITTED] T6004A.005
    
    Mr. Stupak. Well, thank you, Mr. Walden. You make a good 
point. There is another hearing going on on the first floor and 
members will probably be bouncing in and out. It is a markup. 
By markup, it just means we might have a vote in committee so 
we may have to leave. I will stay and keep the hearing moving 
on.
    Next, Mr. Braley for an opening statement, 3 minutes, 
please, sir.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman and Ranking Member 
Walden. I can't imagine a more important hearing for this 
Committee to hold than the one we are having today.
    As a child growing up in the late 1950s, my parents had a 
drop-side crib. As a parent whose children were born in the 
late 1980s, I purchased, assembled and my kids all spent time 
in a drop-side crib, and to the Ciriglianos, I want to extend 
to you our sympathy and also our appreciation for your courage 
in using this tragedy to teach others about this danger, and I 
can't thank you enough for coming down and spending your time 
to help educate us on this important issue.
    I am very, very concerned about the recall, not just of 
these recent cribs but of the millions of cribs that have been 
recalled in the last several months, and I believe we need to 
act immediately to ensure that all cribs sold in the United 
States meet the highest safety standards possible. You have 
heard the number, 635,000 cribs made in China and Vietnam by 
Dorel Asia recalled, this right on the heels of the largest 
crib recall in U.S. history two months ago, and this has been 
something that hits home for me personally because the most 
recent recall has been linked to the October 2008 death of a 6-
month-old infant in my State of Iowa who strangled after 
getting trapped in a Dorel Asia crib when the drop-side 
hardware broke. In addition to that tragedy, the CPSC received 
31 reports of incidents involving Dorel Asia drop-side cribs 
including six reports of children being trapped between the 
mattress and the drop side and also received 36 reports of 
broken slats on the Dorel Asia crib, and this gets back to my 
point earlier. I can tell you having purchased and assembled a 
drop-side crib 30 years after I was in one, that the quality of 
materials being used in these cribs is much less than it used 
to be in terms of the wood products, and that is why we need to 
have a strong response to deal with this clear pattern of 
problems.
    In their statement, Dorel Asia said that the recalled cribs 
meet and exceed all applicable safety standards. If that is 
true, then this is just one more clear indication that we need 
to act as quickly as possible to strengthen and enforce any 
standards.
    These deaths are inexcusable. They involve the most 
vulnerable members of our population and we have no excuse for 
not fixing this problem immediately. I am glad to hear that 
CPSC has taken initial steps to address these safety concerns 
for cribs as mandated by the Consumer Product Safety 
Improvement Act, which we passed hear in 2008 and which this 
Committee addressed in hearings, but I am concerned about the 
length of time this is taking and I look forward to hearing 
from Chairwoman Tenenbaum about the additional steps the 
Commission is taking to improve and upgrade crib safety 
standards.
    Unfortunately, these crib recalls also illustrate the 
dangers of free and unrestricted trade with companies that 
don't have the same safety standards for manufacturing that we 
do in the United States. To ensure the safety of American 
families, we need to ensure that the countries we import 
products from are on a level playing field with those that are 
manufactured here in this country regarding product safety 
regulations. That is why as chairman of the Populous Caucus, I 
am working to make sure that future trade agreements including 
strong product safety standards and that products imported into 
the United States meet or exceed U.S. health and safety 
standards, and I believe that the enactment of those provisions 
contained in the trade act would go a long way toward ensuring 
the safety of imported products including cribs.
    So I want to thank you, Chairman Stupak, for holding this 
timely and important hearing. I look forward to the testimony 
of all of our witnesses and I hope that this hearing will be an 
important step forward toward the prompt implementation and 
strong enforcement of the highest crib safety standards 
possible. I yield back.
    [The prepared statement of Mr. Braley follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.006
    
    [GRAPHIC] [TIFF OMITTED] T6004A.007
    
    [GRAPHIC] [TIFF OMITTED] T6004A.008
    
    Mr. Stupak. Thank you, Mr. Braley. Mr. Burgess, opening 
statement, 3 minutes, please, sir.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Chairman, of course we are here today because of a 
tragedy. It is a tragedy that we cannot reverse. Maybe we can 
prevent future tragedies. I am profoundly regretful that for so 
long the standards as they relate to crib safety have been 
voluntary and not mandatory despite more than 7 million cribs 
being recalled in the last 5 years.
    We have a new commissioner at the Consumer Product Safety 
Commission, Inez Tenenbaum. One of her first speeches was last 
August and she correctly noted that a great deal of product 
safety occurs by relying on consensus standards coupled with 
regulatory authority to intervene quickly, and she prefaced 
this by saying that they should be voluntary consensus 
standards. This makes sense for a new commissioner who has 
witnessed the aftermaths of some of the mandates that were 
issued from the Congress through H.R. 4040, the Consumer 
Product Safety Improvement Act, because we in the Congress have 
yet to go back and fix some of the unintended consequences that 
we visited upon parents and consumers with that Act.
    However, that being said, the Consumer Product Safety 
Improvement Act has beleaguered the Consumer Product Safety 
Commission. Yes, we have improved their funding. Yes, we have 
improved their staffing, but I will tell you, as one of the few 
Members of Congress who has been to the Consumer Product Safety 
Commission and watched the good men and women out there do 
their work, I will tell you that it is startling with the 
amount of work that the amount of safety which they are asked 
to assure the small staff and the rather primitive working 
conditions that they face on a daily basis. They don't have the 
manpower to implement the law and they don't have the finances 
and they are vainly trying to meet the deadlines imposed, and 
they issue stays and enforcement, stay after stay after stay 
and enforcement, while trying to come up with solutions and the 
only real solution is Congress going back and fine-tuning some 
aspects of that legislation and fixing the mistakes that we 
made when that legislation was drafted. Section 104 of the 
Consumer Product Safety Improvement Act specifically requires 
the Consumer Product Safety Commission to study and develop 
safety standards for durable nursery products such as infant 
bath seats, infant walkers and cribs. The Consumer Product 
Safety Commission could have either made mandatory existing 
voluntary safety standards or provided a stricter federal 
safety standard, and the Consumer Product Safety Commission 
worked to initiate two rulemakings by August 2009 and two more 
rules every 6 months until all durable nursery products have a 
mandatory safety standard. But to date, the Consumer Product 
Safety Commission has only proposed safety standards for infant 
bath seats and infant walkers but not cribs, the course of 30 
recalls.
    The crib issue is an issue of failure of those trusted by 
the American public to act. During the last Administration, the 
rule regarding crib safety was being advanced but a new 
Administration came in and this rule has never been finalized. 
Here we are a year later, we see the same problems as we have 
seen before, and really, Mr. Chairman, we have no one to blame 
but ourselves for not regulating not one single product, and 
especially cribs.
    I yield back the balance of my time.
    Mr. Stupak. Thank you, Mr. Burgess.
    Mr. Green for an opening statement, please, 3 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing, our oversight hearing on this important issue. There 
have been 30 recalls since 2005. The largest such recall 
happened just 2 months ago when more than 2 million cribs were 
recalled in November of 2009. Again on Tuesday, there was a 
recall of more than 600,000 cribs. These major recalls 
demonstrate what we need to do in setting safety standards for 
cribs and testing and enforcement of those standards.
    As a grandfather of four under 5, I want to thank all our 
witnesses today but particularly the Cirigliano family for the 
loss of their child. It leaves a hole in your heart for your 
whole life.
    I also want to thank our Consumer Product Safety Commission 
Chair Tenenbaum for being here today. I look forward to hearing 
what actions the Commission plans to take as it reviews safety 
standards for cribs that are required by the Consumer Product 
Safety Act of 2008.
    ASTM International, which provides voluntary technical 
standards manufacturers can follow, amended their standards 
last month and removed standards for what had been one of the 
most dangerous types of cribs, a drop-side crib, especially 
making any drop-side crib noncompliant with the ASTM standards. 
There is a serious problem in that these types of cribs are not 
addressed sooner either by ASTM or the CPSC when it was the 
drop-side crib that led to so many recalls because of the 
safety hazards they pose to infants and children.
    In 2007, a 7-month-old in my hometown of Houston died due 
to a malfunctioning drop-side crib made by Simplicity. The CPSC 
recalled cribs made by that manufacturer but the overall issue 
of dangers posed by drop-side cribs is not addressed. Without 
knowing it, the family of the 7-month-old put the drop-side 
crib on upside down, the rail, and because of that the hinge on 
the rail broke. That allowed a gap between the mattress and the 
rail and the gap is where the child suffocated to death with 
their head against the mattress. This is not a unique problem 
on drop-side cribs but is one that was not specifically 
addressed until December 2009 when ASTM removed standards for 
this type of crib. CPSC now has the authority provided by the 
Consumer Product Safety Improvement Act to move forward with 
strengthening regulations relating to crib safety, and I hope 
it is not just setting standards but enforcing testing to 
ensure unsafe cribs never make it into consumer homes in the 
first place.
    I am also concerned about the secondary market for cribs, 
whether it be through garage sales or resales, similar to car 
seats. You can buy a car seat on the side of the road in 
Houston. It may be 20 years old but it doesn't meet the safety 
standards of today.
    Again, I want to thank the chairman for holding this 
hearing and look forward to the testimony from all our 
witnesses on what Congress can do to help protect infants from 
these terrible accidents. I yield back my time.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.009
    
    [GRAPHIC] [TIFF OMITTED] T6004A.010
    
    Mr. Stupak. Thank you, Mr. Green.
    Ms. Christensen, opening statement, please.
    Mrs. Christensen. Thank you, Mr. Chairman, and I want to 
also thank you, Chairman Stupak and Ranking Member Walden, for 
holding this important hearing.
    Becoming a parent marks the most important event in 
someone's life, and as parents and consumers, we trust that the 
products that we buy are safe for our children and we need to 
have that reassurance. However, we are here this morning 
because some of those products are not safe, in particular, 
faulty cribs that have resulted in injuries and even death, and 
I would like to also add my word of welcome to the Cirigliano 
family and extend my sympathy to them as well, and also commend 
them for being here today and turning their tragedy into a 
crusade to save lives and preventing other parents from 
experiencing the same misfortune.
    We can all agree that we need to work diligently to 
strengthen crib standards and standards for every child entity 
and to ensure that they are meeting the highest of safety 
measures and providing protection to children in a manner that 
they are supposed to be designed to do, and I would also like 
to extend a thank you to all of the other witnesses for being 
here today and look forward to their testimonies.
    Mr. Stupak. Thank you.
    Ms. Schakowsky, opening statement. I know you are probably 
at the other hearing but I mentioned your leading role in the 
Act that we just passed in 2008 and your interest in this area, 
so thanks for being here and thanks again for your diligence on 
this.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I am happy that we 
are holding this hearing.
    This is a life-of-death issue, the safety of cribs. 
Attending hearings where we hear testimony from families of 
children who have died in preventable accidents is one of the 
hardest things I do as a Member of Congress but of course 
nothing compared to what it means to the families like the 
Ciriglianos who mustered the incredible courage to come here 
and tell us their story so that they can prevent these 
accidents from happening to other children.
    The Consumer Product Safety Improvement Act has taken a lot 
of heat over the last year or so, and it is true that under 
previous leadership the CPSC's implementation of the law as 
problematic and produced widespread confusion, particularly 
among small business owners, but we can't lose sight of why 
this legislation was passed: to protect children, children like 
Danny Keysar, for whom the bill is named, and Bobby Cirigliano, 
whose parents are brave enough to share their son's story 
today.
    For years we have heard stories of the horrible injuries 
and deaths of children in cribs and it has been mentioned many 
times how literally millions of cribs have been recalled in the 
last few years. No need to go through that again. But I 
authored the provision in the CPSIA that requires the Consumer 
Product Safety Commission to develop the strongest possible 
mandatory standards for durable infant and toddler products 
including cribs. It is my understanding that the CPSC has 
proposed rules for the first two products, infant bath seats 
and infant walkers. I am concerned that a year and a half after 
the bill became law, there is still no rule for cribs, and I am 
eager to hear from Chairman Tenenbaum, who I welcome today, 
about how we are moving forward on such a rule, and I also want 
to welcome other witnesses including Nancy Cowles, a leader 
with whom I have worked for years on children's product safety 
issues, and again, I thank you, Mr. Chairman, and yield back 
the balance of my time.
    Mr. Stupak. Thank you. That concludes all the opening 
statements of members.
    I would like to call our first panel of witnesses now. 
Robert and Susan Cirigliano, if you would please come forward? 
I have a chair there. As you know, the Ciriglianos are from New 
York, and unfortunately and tragically they lost their son 
Bobby.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that you have the right under the 
rules of the House to be advised by counsel during your 
testimony. Do you wish to be represented by counsel?
    Mrs. Susan Cirigliano. No, thank you.
    Mr. Stupak. The witnesses indicated they did not. 
Therefore, I am going to ask you to raise your right hand to 
take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses have 
replied in the affirmative. They are under oath. I would now 
ask for an opening statement, 5-minute opening statements. It 
will be part of the record, so if you want to submit a longer 
statement, you may, and it is my understanding, Susan, you are 
going to testify?
    Mrs. Susan Cirigliano. Yes.
    Mr. Stupak. Would you pull that mic up a little further and 
press the button. A light should go on there.

  TESTIMONY OF SUSAN CIRIGLIANO, MOTHER OF BOBBY CIRIGLIANO, 
                ACCOMPANIED BY ROBERT CIRIGLIANO

    Mrs. Susan Cirigliano. Good morning. We are Robert and 
Susan Cirigliano, also known as Daddy and Mommy, but we have 
only heard three of our four children call us that because our 
son Bobby never had the chance.
    On September 15, 2004, Bobby was 6 months and 3 days old 
when his head and neck were caught in the detached side rail of 
his crib. After the drop-side detached, Bobby's head was caught 
between the side rail and the mattress. With his face pressed 
against the mattress, he suffocated. Bobby was taken from his 
crib, put into an ambulance, arrived at the hospital and never 
came home.
    We miss Bobby every day, but what is most important is what 
Bobby misses. Bobby has an older sister who never had the 
chance to teach him how to get in and out of trouble. Bobby has 
a younger brother and sister that he has never met. Bobby has 
two grandfathers that he never played catch with, two 
grandmothers whose cookies he was never able to taste. Bobby 
never had a chance to wear his first Halloween costume. He 
didn't get to sit on Santa's lap, and never blew out a birthday 
candle.
    Our smiles have dulled and our family will never be 
complete again. Other than Mommy's and Daddy's arms, Bobby was 
in one of the safest places, his crib. The reality is, his crib 
was not safe and our lives will never be the same. We refuse to 
allow any other families to suffer the pain we have.
    While we are happy to hear about the millions of crib 
recalls, we are convinced that the only answer is a complete 
ban on drop-side cribs. We do not believe that parents realize 
the severity of placing their children to sleep in a drop-side 
crib. The one place that you would leave your child alone has 
become a threat. If they cannot purchase a drop-side crib, they 
would have no option but to purchase a stationary crib. We do 
not believe a repair kit is the answer. If a crib has the 
ability to kill a child, it should not be manufactured. The 
recalls are downplaying the number of children that have been 
suffocated in a drop-side crib. Our son Bobby was not included 
in the CPSC's reports. Their reason for this is the location 
his drop-side rail detached was not the same as the other 
infants. Our problem with this is the investigator's report 
stated the bottom left rail was not secure while Bobby's rail 
detached on the lower right side. The point is, bottom left, 
bottom right, Bobby was asphyxiated and died when his drop-side 
rail detached and he was trapped between the mattress and the 
side just like infants before him and just like infants after 
him. The number of infants reported should not be determined 
where the rail detaches but by the end result.
    We have in the last 5 months worked with Legislation in 
Suffolk County having a bill passed banning the sale of drop-
side cribs. We have worked with Nassau County Legislation 
banning the sale of drop-side cribs and are waiting the bill's 
signing. We are currently working with Rockland County 
Legislation to have the ban passed there also, which by the 
way, it passed on Tuesday night.
    We appreciate Congress inviting us to be here today to 
share our story. We hope you think of Bobby while you determine 
how to keep our babies safe. We are all they have. Their lives 
depend on it. Thank you.
    [The prepared statement of Mrs. Cirigliano follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.011
    
    [GRAPHIC] [TIFF OMITTED] T6004A.012
    
    Mr. Stupak. Mr. Cirigliano, would you like to say anything 
at this time? Okay. That is no. Thank you again for being here 
and thank you for sharing your story.
    Mrs. Susan Cirigliano. You are welcome. Thank you for 
inviting us.
    Mr. Stupak. We are going to have members ask you questions, 
okay?
    Mrs. Susan Cirigliano. Okay.
    Mr. Stupak. Let me ask you this. In your statement, you 
said, ``Our son Bobby was not included in CPSC's reports. Their 
reason for this is the location of the drop-side rail detached 
was not the same as other infants.'' Can you explain that?
    Mrs. Susan Cirigliano. When we saw an interview on 
television regarding the manufacture of our crib's recall, the 
chairperson at the time was asked why Bobby's death wasn't 
included in the recall, and her response was because of the 
location of where his drop-side rail detached.
    Mr. Stupak. There was no doubt that the rail detaching was 
the cause of his suffocation, it is just the location of it 
for----
    Mrs. Susan Cirigliano. Yeah.
    Mr. Stupak [continuing]. Their rules and regulations? Is 
that your understanding?
    Mrs. Susan Cirigliano. Yes.
    Mr. Robert Cirigliano. The recalled crib, the manufacturer 
highlighted the piece that malfunctioned on my son's crib, and 
that was one of the two pieces for the recall, and we would 
still like an explanation for it actually. We never got one. 
You know, the manufacturer put a picture on their website of 
the same exact piece that malfunctioned on my son's crib also.
    Mr. Stupak. Did you report your son's death to the CPSC, 
Consumer Product Safety Commission?
    Mr. Robert Cirigliano. They came down to the medical 
examiner's office and they inspected the crib.
    Mr. Stupak. But do you have any personal knowledge--I don't 
mean to push you on this. I am just trying to figure out, 
because it is my understanding, there is really no requirement 
to report it, so we really don't know how many deaths have been 
caused or even the number of injuries. Was there a requirement 
that you know of to report to the CPSC the injury to your son?
    Mrs. Susan Cirigliano. Well, I don't understand. I am 
sorry. Were we required to report it?
    Mr. Stupak. Right.
    Mrs. Susan Cirigliano. I don't know.
    Mr. Stupak. I mean, your son went to the hospital and 
unfortunately died.
    Mrs. Susan Cirigliano. Right.
    Mr. Stupak. Then who has the responsibility then to report 
it so we have accurate information of the information the----
    Mr. Robert Cirigliano. The last thing you are thinking 
about is reporting it to the CPSC.
    Mr. Stupak. I agree.
    Mr. Robert Cirigliano. But after a couple of weeks, we 
realized that they came down and inspected the crib, because at 
that point we didn't know what had happened.
    Mr. Stupak. When you say they came down and inspected the 
crib, ``they'' would be local officials or----
    Mr. Robert Cirigliano. I am not sure, but there was a 
report and actually there was some parts of the report that 
didn't make sense. The bottom right drop side was the 
malfunctioning side. They reported the bottom left, so that was 
wrong also, and also they said that they asked the medical 
examiner if they could come and interview us and they said the 
medical examiner said no, don't bother the family, and that 
turned out not to be true.
    Mr. Stupak. Okay.
    Mr. Robert Cirigliano. So I don't know. There is just a lot 
of in there that----
    Mr. Stupak. Well, that is what we are trying to----
    Mr. Robert Cirigliano. Right, and we would like some 
answers. That would be nice.
    Mrs. Susan Cirigliano. I am curious too because when you 
are in a situation like that. The last thing that goes through 
your mind is to contact anybody, you know what I mean? And I 
understand your question and it is a great question. From what 
I have on our CPSC report, they received their information from 
one of the newspaper articles, but that is a wonderful 
question. You know, as a parent when you are in that position, 
the last thing you are thinking about----
    Mr. Stupak. Nor should the burden be on you.
    Mrs. Susan Cirigliano. Right, and I am wondering, maybe the 
local police department, you know, somebody has to contact.
    Mr. Stupak. What we are looking for is a way to make sure 
that the Consumer Product Safety Commission and public 
authorities have the most complete information on this product 
or any product. I mean, just listening to the opening 
statements, Mr. Braley mentioned one in his area, Mr. Green 
mentioned one. We have you. We have at least four deaths 
reported in 2009. I will bet you there are many more in 2009 
but no one knows because how do you get the information there, 
who is required to give it, in what timely manner, and then 
there is always the escape clause, if you will, that you have 
to have reason to believe whoever is doing the reporting that 
the crib is the one that was actually the cause of death, and 
there is always a way to see, well, it really wasn't the 
product, it was something else.
    Mrs. Susan Cirigliano. Right.
    Mr. Stupak. And in many of these cases, it looks like a lot 
of times they say well, the parents did this wrong. So that is 
why, and I don't mean to push you. I won't expect you to know 
who to report it to. I am just trying to----
    Mrs. Susan Cirigliano. No, I understand. We are trying to 
figure out the chain of, you know, how is it supposed to get to 
where it should be.
    Mr. Stupak. Correct. That concludes my questions.
    Mr. Walden, questions, please.
    Mr. Walden. Yes, I think you have covered most of it, Mr. 
Chairman, very well.
    I guess the question I would have is, do you think that the 
new system for reporting, the early warning system and all, can 
be effective, as effective? I realize it wasn't in place in 
your situation, the tragedy, but it looks like perhaps out of 
your situation and that of others. They have said, okay, we 
have to fix how we collect these data and how we evaluate them 
and how we spread that out so somebody catches these problems 
quicker. Are you familiar with the new early warning system? Do 
you think it would have made a difference in your situation?
    Mr. Robert Cirigliano. Well, yeah, there has been a lot of 
recalls from the early warning system, and, you know, basically 
the problem was that one agency wouldn't know what the other 
agency reported, and they couldn't get their data together and 
put the similarities together, and I think that is a big step 
that the CPSC has taken. I think it is working. I think they 
need--I think the big thing is to make it a mandatory. Every 
single crib needs to be tested and it shouldn't be voluntary. 
And we all know that. You know, and the other big problem is 
these countries that are importing these cribs into the United 
States and, you know, they are making them a lot flimsier. You 
can just tell. I mean, the plastic spring pegs have been a big 
issue and it is a little three-quarter-inch piece of plastic 
that is supposed to hold a whole side rail up, and, you know, 
back in the day they used to make them out of metal, and you 
know, they are just trying to make a cheap--they are making a 
cheaper product and that needs to be tested. Every single crib 
needs to be tested.
    Mr. Walden. And the new standards that are coming out, and 
came out, I guess, the recommendations in December of last 
year, have you had a chance to review those, the ASTM 
standards?
    Mrs. Susan Cirigliano. No, I haven't seen them.
    Mr. Walden. I would be curious to--and I realize you 
probably have other things going on in your life too than this, 
but I can certainly understand why this is such an important 
issue for you, but I would be curious to get your feedback at 
some point on the ASTM standards, because I think they address 
some of these issues.
    Thank you, Mr. Chairman. That is all I have.
    Mr. Stupak. Thank you, Mr. Walden.
    Mr. Braley for questions, please.
    Mr. Braley. Mr. Cirigliano, I want to follow up on that 
point you just made because my recollection of the crib that 
was in our family for years is exactly as you described. The 
quality of the wood itself, you could probably run a tank into 
and it wouldn't have collapsed. I took 4 years of high school 
shop classes and I have assembled a lot of consumer products 
and I apply a lot of torque to make sure that they are properly 
tightened and yet I remember the one that I assembled. Even 
though it was on wheels and on a hardwood floor, there was a 
flimsiness to it just in the way that it stood there that I 
don't remember on the one that my parents owned. As a parent, 
can you just share with us where Bobby was in the number of 
children you had? Was this the first child you had this crib 
for, the second, the third? Tell us a little bit about that.
    Mr. Robert Cirigliano. No, we had the crib for my daughter, 
and at the time she was----
    Mrs. Susan Cirigliano. Well, we bought it for her when she 
was born.
    Mr. Robert Cirigliano. And when my son started using it, I 
guess 3 years later, and we never took the crib apart. I 
remember putting it together. You know, you try and tighten 
everything down as tight as you can, and, you know, when you go 
and buy a crib, they have got all these safety labels on it. 
Maybe you have a false sense of security, and at that point we 
never realized that there were all these problems with these 
cribs. You just--it just wasn't out there. If it was, we would 
have never bought one. And I think that is a very important 
piece here, and Congress's voice is going to be huge in this. 
Getting the word out to everybody that has these cribs, they 
could be in the garage, up in the attic, and they go to bring 
it back out for a newborn in the family, they need to throw 
those out. They are no good. And I think the voice of Congress 
is going to be huge in this.
    Mr. Braley. Mrs. Cirigliano, I want to talk to you about 
the safety certification on cribs in the marketplace because a 
lot of parents, a lot of young parents are constantly trying to 
educate themselves about product safety. They want to buy 
products that are going to take care of their children. We have 
seen information in preparation for this hearing that the thing 
that makes a crib unique, it is one of the few devices that an 
infant uses where you expect that child to be safe absent the 
constant attention of a parent. That is the whole underlying 
premise for having a crib so that you can go to sleep yourself 
at night with the confidence that child is going to wake up 
healthy and alive in the morning.
    Mrs. Susan Cirigliano. Right.
    Mr. Braley. So one of the things we know is that most 
manufacturers who sell cribs in this country use this 
certification, meeting voluntary safety standards through the 
Juvenile Products Manufacturing Association and they certify 
with a seal on the product that it has been tested by 
independent labs and meets all current mandatory and voluntary 
safety requirements, and if you look up here on the screen, I 
believe this is the seal that is used. Is that your 
understanding?
    Mrs. Susan Cirigliano. Yes.
    Mr. Robert Cirigliano. Yes.
    Mr. Braley. So was this crib that you bought for your 
daughter originally and that was used by Bobby, did that bear 
this seal?
    Mr. Robert Cirigliano. It looks very familiar. I am not 
sure exactly but I know it did have two seals on it, and that 
was one of the things that we were looking for when we went to 
go purchase a crib.
    Mr. Braley. And when you look for that and see it on there, 
as parents, what does that say to you?
    Mr. Robert Cirigliano. It is safe, it has been tested.
    Mrs. Susan Cirigliano. It gives you a sense of security.
    Mr. Braley. Would it surprise you to learn that the cribs 
involved in these latest CPSC recalls were certified by JPMA as 
meeting all applicable safety standards?
    Mr. Robert Cirigliano. It wouldn't surprise me, no.
    Mr. Braley. In your opinion as parents who have purchased 
this product, what value does that certification seal have to 
parents?
    Mrs. Susan Cirigliano. Now or when we purchased the crib?
    Mr. Braley. Now.
    Mr. Robert Cirigliano. It has no value right now.
    Mr. Braley. And why is that?
    Mr. Robert Cirigliano. Because we've been doing a lot of 
research and it seems like, I mean, you are looking at millions 
and millions and millions of cribs that have been recalled, and 
the reasons for the recalls, you know, just little pieces of 
plastic that--and springs. You know, how long is a spring 
reliable?
    Mrs. Susan Cirigliano. You are talking about a spring and a 
plastic piece that are exactly what you use in a Bic pen. It's 
basically the size of what it is, and how long does a Bic pen 
last? I would think a majority of families do not go out and 
buy a new crib every time a new child is born. Most families 
buy one crib and they, you know, use it for the length of all 
of their children.
    Mr. Braley. Well, I couldn't agree more, and Mr. Chairman, 
I hope that we will use this hearing as a way to identify ways 
to improve the safety certification process to protect the 
rights of consumers and the safety of infants, and I yield 
back.
    Mr. Stupak. Thank you, Mr. Braley.
    Mr. Burgess for questions.
    Mr. Burgess. Thank you, Mr. Chairman, and thank you both 
for being here. I think you have already answered this with Mr. 
Braley, but this was a crib that you had purchased new 
yourselves?
    Mrs. Susan Cirigliano. Yes.
    Mr. Burgess. So this was not a hand-me-down, it was one 
that you had. Was this crib, did it end up on a recall list?
    Mrs. Susan Cirigliano. Yes.
    Mr. Robert Cirigliano. Yes.
    Mr. Burgess. How did you receive the notice of the recall?
    Mrs. Susan Cirigliano. By watching television.
    Mr. Burgess. So it was after the fact?
    Mrs. Susan Cirigliano. Yes.
    Mr. Robert Cirigliano. Right.
    Ms. Burgess. Now, I think, Mr. Cirigliano, you referenced 
this, the way the data is managed, the way the data is 
collected is obviously critical and the CPSC is trying to build 
a registry, so clearly that would be something that would be 
helpful and yet I get the impression from listening to your 
testimony that with the drop-side design, that even the 
registry is really insufficient, it is the design itself of the 
drop side. Is that correct?
    Mrs. Susan Cirigliano. That is my belief, yes.
    Mr. Burgess. And yet the drop side presumably developed at 
some point because someone thought it would be worthwhile to 
save wear and tear on mom's back as baby gets bigger and bigger 
and bigger to be able to change him, attend him and move him in 
and out. So there may be a tradeoff there but at the same time 
safety ought not to be the thing that we trade off, and I agree 
with Mr. Braley, consumers need to be informed about the 
potential dangers of the drop side if that indeed is what they 
are going to purchase. There are advantages but there are 
disadvantages as well. Do you think if CPSC had had registry 
when your crib was recalled, would that have been helpful to 
you all? I am worried that we don't get the word out. Now, you 
bought your crib new so if there was a warranty card that you 
returned or a website that you registered, that is one of the 
things that we struggled with when we did 4040, the big 
improvement act on consumer product safety that we did a year 
or two ago, but I will tell you, I am not good about those 
warranty cards myself, and as I remember cribs from my kids 
were little, my wife's dad got a crib down from the attic in 
Arkansas and brought it down to Texas and that was a crib for a 
couple of years, and then it went on to its next life in her 
sister's home for a while, and I don't know where that crib is 
today but I think it is still probably in circulation out 
there. I don't know how, you know, if that crib were on a 
recall list, I don't know how folks would ever know. Where that 
becomes important in the resale industry, the Goodwills, the 
Christian Community Action stores in my district that do good 
work for providing low-cost products to young families who 
don't have the wherewithal to go out and buy new products, how 
do you get that information to them, and that is one of the 
things that we struggled with when we did 4040, and I guess 
listening to you today, sir, it would just be if a resale shop 
has a drop-side crib, they need to be very, very circumspect 
about whether or not they go ahead with resale to another 
family because at least the more recent product manufacturer 
has left you feeling that there is going to be some danger 
involved in that product. Am I overstating that?
    Mrs. Susan Cirigliano. No, I agree. I definitely think 
there's going to be danger. That is why we feel like the ban is 
very important, and we have been doing a lot of media and word 
of mouth. I am small but I have a large mouth when it comes to 
this and I make sure that every person I talk to, and sometimes 
I feel I am being a little hurtful to the pregnant mom that I 
am walking up to by explaining my story to her but I think that 
is the only way to get it out there.
    Mr. Burgess. Well, let me just ask you, and you heard my 
opening statement about whether or not these safety standards 
be voluntary or mandatory. Do you have a feeling about that? 
Should the standards be voluntary?
    Mrs. Susan Cirigliano. I think they should be mandatory.
    Mr. Burgess. And the last question I have, again, you 
already answered it. What would you fix about the drop-side 
crib? Well, you would fix it by not having it. Probably fix it 
with an ax.
    Mrs. Susan Cirigliano. We say we would break them, burn 
them and throw them away.
    Mr. Burgess. I can't even tell you the crib that my kids 
were in. It was probably manufactured in the 1930s, and like 
Mr. Braley's experience, I mean, I tried hard, I think, to 
destroy it trying to fit it in the back of U-Hauls over several 
moves, and that thing was--I mean, you just couldn't destroy 
it.
    I think we have to be careful how we proceed, Mr. Chairman. 
We got into a lot of difficulty with the unintended 
consequences when we did that big 4040 bill. I got motorcycle 
dealers in my district who sell used motorcycles and they are 
banned from selling them in case the kid eats the battery, he 
could get lead poisoning. I mean, that is ridiculous. And we 
haven't gone back and fixed that. So I do want us to be careful 
at the same time. I mean, here is a problem, I have got a list 
of crib recalls going back to the 1970s, 2 million in 2009, 1 
million in 2007, 104,000 in 2005, 6,000 in 1997, 1,600,000 in 
1986, 400,000 in 1979, 70,000 in 1978. I mean, clearly there is 
a problem here that we need to solve.
    All right. I will yield back the balance of my time.
    Mr. Stupak. Thanks, Mr. Burgess. Most people don't eat 
batteries so I don't think it is really necessarily the law but 
maybe the way we apply it, and that is the reason why the 
testimony of the Ciriglianos and others are very helpful. I 
agree with you, some of the applications of the law as it was 
passed have not been the best by any Administration, and that 
is part of our job, to make sure they are done properly.
    Mr. Green for questions, please.
    Mr. Green. Thank you, Mr. Chairman, and hearing both from 
Congressman Braley and Congressman Burgess. When my daughter 
was expecting, I went up to the attic and got our crib from our 
children, which is the 1970s. My wife explained to me very 
quickly that, you know, they were too far apart, and instead of 
putting it out on the curb, I actually took a sledgehammer to 
it so nobody else could use it, and that is what bothers me, I 
guess, because, you know, I was going to try and use it from 
generation to generation. It doesn't work. Our grandchildren 
actually stay in a Pack and Play when they come to our house.
    But I want to go to the instructions that you all received, 
because the child, the 7-month-old in Houston who passed away, 
the parents actually put the rail upside down, and did you have 
problems with the instructions? Having put together lots of 
stuff, it sometimes is real difficult, and don't torque it too 
much because you might have to take it off and put it back 
together again. Did you all have problems with the 
instructions?
    Mr. Robert Cirigliano. I don't remember having problems 
with the instructions, but the one thing I found odd was, our 
instructions were on the mattress board. That is the board that 
is put under the mattress. So you are actually putting the 
instructions in place, and I just remember, I mean, it was just 
the oddest thing and I to this day can't believe that that was 
done. It wasn't a piece of paper. It was on a mattress board.
    Mr. Green. The least they could do is make it on the upside 
so you can read it.
    Mr. Robert Cirigliano. It was pretty bizarre.
    Mr. Green. And I think that is something that I----
    Mr. Robert Cirigliano. That is another problem.
    Mr. Green. They need to make sure that, one, they are 
easily readable, but they are also common sense-wise that you 
have it. And again, for the loss of your child, like I said, we 
have had three in the Houston area over the last few years. 
What a tragedy.
    I yield back my time, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Green.
    Ms. Schakowsky for questions, please.
    Ms. Schakowsky. I will pass on questions but I just really, 
really want to thank you for informing us with what is probably 
the most compelling testimony of all, and that is your personal 
experiences and your advice. I think right now there is some 
voluntary standards about not having any drop-side cribs. We 
want to make sure that they are eliminated from the marketplace 
so no one else has your experience, and I admire you for going 
up to pregnant women. It may be the most important piece of 
advice that they get during their pregnancy, and, you know, 
being pushy in that sense is a really good thing. So thank you 
very much for being here today.
    Mrs. Susan Cirigliano. Thank you.
    Mr. Stupak. Ms. Sutton for questions, please.
    Ms. Sutton. Thank you, Mr. Chairman, and thank you very 
much for your testimony, for coming forward today. We are so 
sorry for your loss.
    Mr. Chairman, I want to thank you very much for holding 
this hearing because, you know, it is clear with millions of 
cribs being recalled because of problems with drop sides, it is 
time for the CPSC to take action, to protect the infants and 
address millions of parents' concerns. You know, we have the 
responsibility to act to ensure that parents can lay their 
infant down without fear in their crib, and I am deeply 
concerned also that when we hear about problems, oftentimes 
products that recalled were manufactured in other countries, 
and it is unconscionable when companies and importers pay more 
attention to cost than to our safety. Product safety has to 
always be the primary focus, and so parents, as I said, should 
not have to worry about laying their infant child in a crib and 
being exposed to grave danger. And so while we are happy that 
recalls advise parents but it is after the danger, you know, is 
present and identified. The products need to be safe when they 
are manufactured and put on a store shelf.
    Now, Mr. Chairman, one of the reasons why I appreciate this 
hearing and your testimony also is that it sort of draws 
attention to this problem where we have products coming in that 
consumers assume are living up to our safety standards, and 
they may not even know--it is impossible to subject foreign 
manufacturers to U.S. law, and I am going to be introducing 
soon a bill called the Foreign Manufacturers Legal 
Accountability Act to protect American consumers and businesses 
from defective products manufactured abroad because we need to 
make sure that the products being consumed in this country are 
safe for consumption.
    So thank you again for your testimony. We are very, very 
sorry for your loss. But thank you for being here.
    Mrs. Susan Cirigliano. Thank you.
    Mr. Stupak. I thank you both for being here, and thanks for 
your testimony and really helping us understand the issue more, 
and we are going to continue with this hearing. You are welcome 
to stay if you like but we will dismiss you now, and thanks 
again and thanks for working with us.
    Mrs. Susan Cirigliano. Thank you.
    Mr. Robert Cirigliano. Thank you.
    Mr. Stupak. I will call our next panel of witnesses. On our 
second panel we have Nancy A. Cowles, executive director, Kids 
in Danger, and Michael Dwyer, executive director, Juvenile 
Products Manufacturers Association, if they would come forward?
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that you have the right under the 
rules of the House to be advised by counsel during your 
testimony. Do you wish to be represented by counsel? Both 
indicated not. Then I am going to ask you to raise your right 
hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect both our witnesses 
answered in the affirmative. They are under oath. We would ask 
for an opening statement of 5 minutes. If you have a longer 
statement and supporting documents, we will be happy to make it 
part of the record. Ms. Cowles, would you like to go first?
    Ms. Cowles. Sure.
    Mr. Stupak. Just pull that mic up and press the button. 
Thank you, and good morning.

   TESTIMONY OF NANCY A. COWLES, EXECUTIVE DIRECTOR, KIDS IN 
    DANGER; AND MICHAEL DWYER, EXECUTIVE DIRECTOR, JUVENILE 
               PRODUCTS MANUFACTURERS ASSOCIATION

                  TESTIMONY OF NANCY A. COWLES

    Ms. Cowles. Good morning, Chairman Stupak, Ranking Member 
Walden and committee members. First let me thank the House 
Subcommittee on Oversight and Investigation for holding this 
very important hearing on crib safety and for giving us the 
opportunity to participate. I do have a much lengthier 
statement, which I believe I have already submitted, so I will 
read very briefly through a shorter statement for this purpose.
    Kids in Danger is a nonprofit organization--we are based in 
Chicago--dedicated to protecting children by improving 
children's product safety. As Congresswoman Schakowsky 
mentioned, we were founded in 1998 by the parents of Danny 
Keysar, who was killed in a portable child crib at his 
childcare location. Even though the home had just been 
inspected days before, the crib had been recalled 5 years 
earlier, had already killed four children, and yet there was no 
publicity. No one knew that it was recalled in that home. And 
our mission is to prevent this from happening to other 
children, to promote the development of safer children's 
products, advocate for children, and educate the public about 
these important issues.
    And I think it has been said, the crib is first and 
foremost a safety device. Cribs are the only children's product 
that is made to leave a child unattended so that someone so 
aptly said, you can get a few hours sleep yourself. But 
concerns about this issue are not new. Crib durability, more 
strenuous testing, hardware failures, assembly problems have 
been raised at almost every one of the voluntary standard-
setting meetings that I have attended since I joined that body 
in 2001 and yet there has been until very recently little or no 
change to the standard for years. And the mandatory standard 
has been stuck even farther back in time. Any new changes at 
all were made to the voluntary standard. Even the vital safety 
measure of banning corner posts on cribs, which led to many 
deaths, does not appear in the current federal standard.
    The failure of the voluntary system to adequately protect 
children is what led Congresswoman Jan Schakowsky to first 
introduce the legislation that is now in the CPSIA calling for 
stronger mandatory standards and third-party testing back in 
2001. Had we done it then, we may have a different outcome to 
Susan and Rob's story here. So it isn't that the problem wasn't 
known, rather it is that CPSC lacked the resources and 
authority and manufacturers lacked the will to strengthen the 
standards. Now with the statutory requirement in the CPSIA, we 
will be seeing a strong standard.
    As has been mentioned, since September 2007, over 7 million 
cribs have been recalled by the CPSC. Most were tested to the 
voluntary standard and certified by the Juvenile Products 
Manufacturers Association. Many were recalled for hardware 
failures, drop-side failures, but some were recalled for clear 
violations of the mandatory standard. They were painted with 
lead paint or they simply did not meet the required dimensions. 
If manufacturers are making cribs that don't meet standards 
that can be confirmed with a tape measurer and a lead test 
swab, then how can we expect that they can be safe in terms of 
design to keep babies safe unattended?
    This current situation leaves parents in a horrible 
position. We often get calls from parents asking for advice, 
what to do, especially as they hear about all these new 
recalls. We can be of limited help. We can't say to look for 
the JPMA label, even though it does indicate some minimum 
testing, since all of the recalled cribs primarily were 
certified to that standard. We can say to stay away from drop-
side cribs but there is also incidents with mattress supports, 
hardware failure and breaking crib slats, and the last thing 
any of us want is for parents to get the idea that other places 
are safer for their baby than a crib. Babies are safest in a 
safe crib, and that is why this is so urgent that we solve this 
problem now.
    Let me briefly talk about consumer use of cribs. Parents 
will use a crib for more than one child. They will pass them on 
to their sister or friends and sell them secondhand. It doesn't 
mean it is a 20-year-old crib they are passing on, it could be 
a 2- or a 3-year-old crib. I think we can assume that if 
someone spends, you know, up to $1,000 on a product, they 
aren't going to use it for 2 years and then throw it out. It is 
not consumer misuse when a crib is assembled, taken apart and 
reassembled more than once. In addition to military families--I 
was an Air Force brat myself who moved frequently--other 
families move and many parents on the advice of their doctors 
start with the crib in their bedroom and then need to move it 
to the child's bedroom later on. In these tough economic times 
and in the midst of a growing green mindset, manufacturers 
should expect that this is what will happen to their products. 
They will be used for more than one child or even more than 
just two children in a row.
    So if a crib can't handle being reassembled, it should not 
be sold. If the crib falls apart, losing screws or the little 
safety plugs or has a drop side that won't stay up, parents are 
going to try to fix it. They aren't engineers and they do not 
clearly understand the risk of that action. We need to give 
parents a crib that lasts, hardware that doesn't fall out and 
clear instructions on how to use that product. We are glad that 
CPSC is finally moving to a strong mandatory standard. In our 
written statement, we have a lot of suggestions for that. But I 
would just like to again talk about the misassembly. Far from 
seeing misassembly as solely a consumer use problem, I would 
assert that products designed in such a way that parts can be 
assembled in more than one way including ways that lead to 
death is a design problem and not a consumer misuse problem. As 
I said, I have specific things, but I would also like to just 
mention the public consumer incident database that the CPSC is 
working on because I think that will also be very important for 
safety. That way parents can get the information themselves. If 
they are about to buy a crib or have a problem with their crib, 
they can find other people who have the same problem. So I 
applaud CPSC for moving ahead with that.
    And secondly, I have something I would suggest for this 
committee, and that is, the big problem is recall 
effectiveness. These cribs remain out there once they are 
recalled. So of the 7 million cribs recalled, more than half of 
them are probably still in use. We need to improve recall 
effectiveness. One way you could help do that is to require 
CPSC to report to you annually on their recall effectiveness 
for each of these recalls. Each manufacturer is required to 
file a monthly corrective action report that says how many 
consumers have contacted them, how many products they have 
replaced or fixed. If that information was public--right now it 
is a very difficult FOIA process to get it--I think that alone 
would make manufacturers work much harder to get those products 
out of use.
    So again, thank you so much today. I appreciate it, and I 
would be happy to answer any questions.
    [The prepared statement of Ms. Cowles follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.013
    
    [GRAPHIC] [TIFF OMITTED] T6004A.014
    
    [GRAPHIC] [TIFF OMITTED] T6004A.015
    
    [GRAPHIC] [TIFF OMITTED] T6004A.016
    
    [GRAPHIC] [TIFF OMITTED] T6004A.017
    
    [GRAPHIC] [TIFF OMITTED] T6004A.018
    
    [GRAPHIC] [TIFF OMITTED] T6004A.019
    
    [GRAPHIC] [TIFF OMITTED] T6004A.020
    
    [GRAPHIC] [TIFF OMITTED] T6004A.021
    
    [GRAPHIC] [TIFF OMITTED] T6004A.022
    
    Mr. Stupak. Thank you.
    Mr. Dwyer, your opening statement, please, sir.

                   TESTIMONY OF MICHAEL DWYER

    Mr. Dwyer. Thank you. Good morning, Chairman Stupak, 
Ranking Member Walden and members of the committee. I 
appreciate the opportunity to testify today about crib safety. 
The timing of this hearing is fortuitous since my fellow 
witness, Nancy Cowles, and I just spent two very productive 
days at the CPSC developing the new voluntary standard for 
full-sized cribs which the CPSC is hoping to promulgate later 
this year as a new federal standard. JPMA has long advocated 
the adoption of the more expensive ASTM F-1169 as a mandatory 
federal standard. At the behest of Chairman Tenenbaum, juvenile 
products manufacturers, ASTM and consume advocacy groups have 
worked with CPSC technical staff to update CPSC crib 
regulations. This rulemaking comes on the heels of similar 
rulemakings for infant walkers, bath seats and upcoming 
rulemakings on toddler beds and bassinets and cradles. These 
rulemakings are all occurring pursuant to section 104 of the 
CPSIA passed by Congress in 2008 with extensive input from the 
full committee.
    JPMA has been working and will continue to work 
collaboratively with all stakeholders towards our common goal 
of promoting the safest and most effective juvenile product 
safety standards in the world. Our members produce products 
that help prevent injuries to our children. While tragic 
accidents often occur or may occur, these products save many 
lives. As an example, child restraint seats or car seats save 
an untold number of children's lives in motor vehicle 
accidents. Similarly, cribs have helped assure that children 
are placed safely to sleep.
    JPMA offers a certification program to manufacturers who 
are willing to have their products tested to ASTM standards by 
independent third-party CPSC-accredited laboratories. The 
certification program was created in 1976 when manufacturers 
approached ASTM through the association about setting a 
voluntary safety standard for high chairs. That standard has 
evolved but it is still in effect today. Since then, JPMA has 
expanded the certification program to cover 19 additional 
products with two more pending. ASTM is one of the largest 
voluntary standard-setting organizations in the world with over 
22,000 members worldwide. ASTM standards are developed on a 
consensus basis by all interested parties. Any reputable 
stakeholder can join a standards development committee and vote 
on all aspects of the standard. Every standards development 
committee member with a vote can influence this process.
    For years, JPMA has worked alongside consumer advocacy 
organizations such as Consumers Union, the Consumer Federation 
of America, Keeping Babies Safe and Kids in Danger on the 
development of a variety of juvenile products standards 
including the full-size crib standard. The first federal full-
sized crib standard was promulgated in 1973, as we heard 
earlier, and ASTM developed its first full-size crib standard 
in 1988. The voluntary standard fully incorporated the federal 
standard and added numerous performance testing requirements 
including corner posts, height restrictions and additional 
warning labels and instructional requirements. Since then it 
has been modified multiple times to address emerging hazards 
including last December's modifications which eliminated 
traditional drop sides and established crib slat integrity 
criteria and testing procedures.
    F-1169 has been extremely effective. During a 2007 hearing 
on the CPSIA, the CPSC testified to an 89 percent reduction in 
crib-related fatalities due to the establishment and 
effectiveness of the voluntary standard. The federal standard 
has been updated once since its inception 37 years ago. The 
CPSC has relied on the ASTM voluntary standard as the best tool 
for promoting crib safety in the marketplace. The JPMA 
certification program provides consumers the best way to know 
that their crib meets both the mandatory and the voluntary 
standards.
    Here is how the program works. A manufacturer must apply to 
participate in the program and agree to have all of its models 
and product category tested to the applicable ASTM standard. We 
do not test products ourselves nor do we maintain our own 
standards. JPMA relies on the experts at independent third-
party CPSC-accredited labs to verify compliance to the 
applicable ASTM standard. JPMA has never used or promoted its 
own safety standards. All products including full-size cribs 
bearing the JPMA certification logo must meet all parts of the 
applicable ASTM standard.
    Achieving compliance, however, is just the beginning of a 
manufacturer's obligation under the program. Manufacturers must 
also submit to ongoing testing. This testing occurs quarterly 
for at least 25 percent of their models so that all models are 
tested at least once per year. In addition, an independent 
third-party CPSC-accredited laboratory pulls JPMA-certified 
products at random from retail shelves and tests those products 
for compliance. JPMA is proud of our role in promoting safe 
sleep for the most vulnerable segment of our population.
    According to First Candle, one of the Nation's leading 
nonprofit organizations dedicated to safe pregnancy and the 
survival of babies through the first years of life, there are 
about 4,700 incidents each year involving infant sleep 
environments. At least 80 percent involve parents and 
caregivers putting their children in an unsafe place outside 
the crib. A properly assembled, fully functional ASTM-compliant 
crib remains the safest place for our babies to sleep. 
Unfortunately, tragic accidents can occur with improperly 
assembled, second use or heirloom cribs. We believe that better 
information and education can help reduce these rare fatalities 
involving missing hardware or improperly assembled or 
reassembled cribs. That is why JPMA has designated safe sleep 
as the theme for this year's Baby Safety Month, which takes 
place in the ninth month of each year. JPMA is working with the 
CPSC, our retail partners and any interested consumer safety 
advocacy groups to promote safe crib assembly and safe sleep 
practices. JPMA welcomes all efforts in this regard.
    Again, I thank you for the opportunity to appear today.
    [The prepared statement of Mr. Dwyer follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.023
    
    [GRAPHIC] [TIFF OMITTED] T6004A.024
    
    [GRAPHIC] [TIFF OMITTED] T6004A.025
    
    [GRAPHIC] [TIFF OMITTED] T6004A.026
    
    [GRAPHIC] [TIFF OMITTED] T6004A.027
    
    [GRAPHIC] [TIFF OMITTED] T6004A.028
    
    Mr. Stupak. Thank you. We will go to questions from 
members.
    Ms. Cowles, let me ask you, in your statement, and explains 
a little bit more on page 2 and going on the top of page 3, you 
talk about the corner post of the crib. In fact, both of you 
mentioned the corner post of the crib, and then you go on to 
say at the top of page 3, ``At the same time, the mandatory 
standard has been struck in time as well. All new changes have 
been to the voluntary standard. Even the vital safety measure 
of banning corner posts on cribs was integrated into ASTM 
voluntary standard does not appear in the federal standard.'' 
So it was mandatory and now it is voluntary?
    Ms. Cowles. No, it was never mandatory. It has always been 
in the voluntary standard. They first--as Mr. Dwyer mentioned, 
that standard was passed in 1988 but they first started working 
on it in 1984 after unfortunately another child named Danny 
died when he strangled on his corner post of his bed. So it has 
always been in the voluntary standard.
    Mr. Stupak. So right now I could make a crib. I could have 
this post here. It is a voluntary standard not to do it?
    Ms. Cowles. You could have it. You would probably have 
difficulty if you wanted to sell it through traditional 
retailers, who probably wouldn't take it, but certainly with 
the extent of the Internet and CPSC would probably recall it if 
they got it, but you could certainly try and sell it. It does 
not violate the mandatory standard.
    Mr. Stupak. Does not violate the mandatory standard?
    Ms. Cowles. Right.
    Mr. Stupak. Mr. Dwyer, let me ask you this. The Consumer 
Products Manufacturers Association--we will just call it JPMA--
is a trade association that represents the manufacturers of 
children's products, of course. You offer your members a 
certification, as you testified, and there is a fee that 
certifies a product such as a crib meets all applicable 
mandatory standards as well as voluntary standards of the ASTM, 
correct?
    Mr. Dwyer. That is correct, sir.
    Mr. Stupak. The JPMA encourages its members to use your 
seal of approval. I think we had it on the board there at one 
time. And then they are advertising to show consumers that they 
are JPMA certified. I want to show you this ad. I think it is 
in tab 11 there, if you want to look at it right there in the 
book in front of you. In this ad the JPMA ran in several 
magazines for new parents, this ad says, and I quote, ``Be 
confident that juvenile products you purchase are designed and 
built with safety in mind.'' What does safety in mind mean in 
the ad?
    Mr. Dwyer. That parents can be assured that the products 
that we certify meet the applicable voluntary and mandatory 
standards for those products.
    Mr. Stupak. In a way, would it be safe to say you are 
certifying the cribs as being safe then?
    Mr. Dwyer. We are verifying that the manufacturers who meet 
at ASTM along with all other stakeholders to discuss incident 
data, and Ms. Cowles mentioned the data, that is used to drive 
the activity of the committee, and if there are issues related 
to a product concern, that they address those and incorporate 
those into the standard and that the manufacturers meet those 
standards.
    Mr. Stupak. So what you are really saying is, we met all 
the standards, this product meets the standards, whether 
voluntary or mandatory, not verifying safety, just that the 
standards are met. Is that what we are saying?
    Mr. Dwyer. We believe that by meeting all of the standards 
that the products are safe and that manufacturers take into 
account certainly the safety of their ultimate customers, our 
babies, when they build these products.
    Mr. Stupak. The ad goes on, and again I want to quote from 
the ad. It says, ``Buying a JPMA-certified product in any of 
the below categories ensures that the product has gone through 
an extra set of rigorous testing.'' Over the past several 
years, and we have heard testimony today, cribs involved in 
some of the largest recalls are Simplicity, Delta, Stork 
Crafts, all earned the JPMA seal of safety certification. So my 
question, Mr. Dwyer, would be, has JPMA changed the 
requirements for the certification program in light of the 
recalls we have seen? In fact, even Tuesday we had one of 
635,000 cribs. Have you changed the certification that would be 
found in this ad?
    Mr. Dwyer. Well, just to make sure everybody is clear, the 
certification is a verification that they meet the standard.
    Mr. Stupak. Correct.
    Mr. Dwyer. The standard--as the standard changes, the 
certification changes inasmuch as that is what it is, it is a 
verification to the change in the standard. I am not quite sure 
I understand the question.
    Mr. Stupak. Since the recalls in 2008 and 2009, Stork Craft 
had two big recalls, have those standards changed at all?
    Mr. Dwyer. The ASTM standards?
    Mr. Stupak. Yes.
    Mr. Dwyer. The standard changed with a recent change in 
December that would ban the drop sides and also added a slat 
integrity test and requirements to the crib standard as well--
--
    Mr. Stupak. So----
    Mr. Dwyer [continuing]. In December of 2009.
    Mr. Stupak. So when you certify now, so when you run this 
ad, that means the slat has been changed and no more drop side, 
right?
    Mr. Dwyer. It verifies that the cribs meet the standards. 
However, the certification program does allow for 180-day sell-
through period, so we will certify to the new version of the 
standard 6 months after it has been implemented.
    Mr. Stupak. When is the 6 months up?
    Mr. Dwyer. It will be in June. I don't know the exact date.
    Mr. Stupak. Right.
    Mr. Dwyer. But I do know that manufacturers at this point 
to move product out of the marketplace, they are no longer 
manufacturing drop-side products.
    Mr. Stupak. Right, but just so we are clear, we have until 
June. So there still could be drop-side cribs out there right 
now for sale with the JPMA certification because they have 
until June, 180 days, right?
    Mr. Dwyer. That is correct.
    Mr. Stupak. I guess my time is up. Mr. Walden, questions?
    Mr. Walden. And that would be unless CPSC recalls that?
    Mr. Dwyer. That is correct.
    Mr. Walden. So that would be the only check then, is if 
there is an identified problem, and CPSC could step in, issue a 
recall and take those out of the marketplace but parents may 
still have those cribs, legacy cribs, if you will?
    Mr. Dwyer. That is correct.
    Mr. Walden. Ms. Cowles, you were recently quoted in the 
press as saying the same problems have existed for 10 years and 
nothing has been done and we are glad to see that it is now a 
crisis and people are acting. Do you want to talk about that 
quote?
    Ms. Cowles. Sure.
    Mr. Walden. So nothing has been in 10 years?
    Ms. Cowles. Well, I have sat on the ASTM committee since 
2001 and there have been other consumers who have been on those 
committees before that, and in those committee meetings the 
same issues that we are talking about here today, the same 
issues we talked about the last 2 days where we actually 
finally made real progress such as putting in a test that has 
been in Canada during all that time. It is called a racking 
test. It subjects the crib to much more rigorous shaking and 
testing, much more similar to----
    Mr. Walden. Like a child would do.
    Ms. Cowles. Like a child might do, and we have asked 
repeatedly since 2001 to add that test to the ASTM standard and 
it was never added.
    Mr. Walden. So on the ASTM standards, and your committee, I 
am not familiar with how that operates. How many members are on 
that committee?
    Ms. Cowles. Mike might know better than I do. I would say 
around 50 but I am----
    Mr. Walden. Mr. Dwyer.
    Mr. Dwyer. I would say actively participated in F-15, it is 
at least 50.
    Mr. Walden. So 50 members, 15 that actually participate?
    Ms. Cowles. Fifty.
    Mr. Walden. Fifty, five zero?
    Ms. Cowles. Correct.
    Mr. Walden. And during that 9-year period that you have 
been on it and this has been an issue floating around, have 
there been recommendations that have gone forward that you 
voted against because they are not strong enough or----
    Ms. Cowles. Yes. As one of the sometimes three, sometimes 
four consumers in the room out of those four, our votes 
unfortunately did not go too far.
    Mr. Dwyer. Can I just follow up on that?
    Mr. Walden. Yes, Mr. Dwyer.
    Mr. Dwyer. I mean, and again, I don't--I am not 
representing ASTM, they are not here at the table, but I do 
participate in the process as Nancy does, and, you know, 
anybody who participates in that process has the opportunity to 
cast a negative vote on any ballot, and if that ballot is--if 
that argument is found persuasive through the ASTM process, it 
can be upheld and modifications can be made to the ballet 
before the final rule is issued. I just want to be very clear 
that everybody that participates in the process has an equal 
vote in that process.
    Mr. Walden. Okay. And then Mr. Dwyer, I wanted to--in light 
of recent events, do these companies like Stork Craft lose 
their membership status in your organization?
    Mr. Dwyer. No, they would not lose their membership status. 
The certification program is separate and apart from membership 
in the organization.
    Mr. Walden. Okay, so same for Delta and other brands that 
are JPMA certified?
    Mr. Dwyer. Correct.
    Mr. Walden. Okay. So they can still be a member?
    Mr. Dwyer. Correct.
    Mr. Walden. Okay, even though they have these--in your 
testimony, JPMA lists over 20 product categories that are 
currently in your certification program and including cribs and 
infant carriers. Which products should CPSC list as their top 
priorities for safety issues and issue safety standards for as 
soon as possible?
    Mr. Dwyer. In my opinion, sir, which products?
    Mr. Walden. Yes.
    Mr. Dwyer. I would say cribs, and that is why we spent 2 
days and why the chairman reached out to the manufacturers and 
the consumer groups and asked us, as I testified, to please 
help us accelerate rulemaking on full-size cribs.
    Mr. Walden. And Ms. Cowles, are you satisfied with the new 
recommendations that came out in December?
    Ms. Cowles. I think banning drop-side cribs is an important 
step. However, the real problem with drop sides, as the family 
testified, is the hardware failures, using plastic hardware, 
and those hardware pieces are still in other parts of the crib 
so we do believe we still need this stronger racking test to 
test hardware for durability, and that in fact is being talked 
about in the meetings that we have been to, so we are satisfied 
that the new mandatory standard will have sufficient strength 
in it once we get to that point.
    Mr. Walden. And did you all vote then on this new standard 
that came out in December?
    Mr. Dwyer. Not yet. The process----
    Ms. Cowles. In December, he is asking.
    Mr. Dwyer. Oh, I am sorry.
    Mr. Walden. And did you support that then?
    Ms. Cowles. Yes.
    Mr. Dwyer. I abstain from voting on the ASTM committees. We 
support an administrative role but I do support the activities.
    Mr. Walden. Okay. You know, I think that is--yes, that is a 
good point. The manufacturing problems I think is probably the 
issue we are all kind of looking at here. What should be done 
there?
    Ms. Cowles. In terms of the manufacturing of the product 
itself? Well, I would submit, and I will talk to that, but just 
let me briefly say, many of these are design issues, if you 
design a product with bad hardware, but manufacturing, and I 
think one of the reasons the older cribs that people are 
talking about that seemed to have held up well were made under 
the same lax regulations but were made, you know, here under 
our--so I think that manufacturing plays a role and I am hoping 
that both JPMA, CPSC in their oversight role, you know, work to 
make sure that, you know, if you choose to make a product 
overseas that you are selling to American consumers, you need 
to make sure it is as safe as if you made it here. That is 
really the manufacturer's responsibility.
    Mr. Walden. Thank you.
    Mr. Dwyer, do you want to comment on that?
    Mr. Dwyer. Manufacturers of these products are incredibly 
responsible. Ultimately their customers are babies. I am the 
father of three children. I used a drop-side crib that was 
handed down to me by a friend of a friend, disassembled it 
three times, put it together three times, took care to follow 
the instructions every time, and manufacturers--ultimately 
children's lives are the most precious commodity and I believe 
manufacturers have always had that--
    Mr. Walden. You know, if I can interrupt you just a second, 
the family behind you made the comment about the instructions 
being on the bottom of the mattress or the bottom of the slat 
and sort of glued on there. Is that done so that it continues 
on if somebody takes it apart?
    Mr. Dwyer. Correct.
    Mr. Walden. Because I don't know anybody that keeps the 
instructions for anything we put together.
    Mr. Dwyer. Correct. It is part of the standard because just 
that, so that the instructions don't get lost if the crib is 
handed down or if it disassembled in between each child, which 
a product should be made to be able to disassembled multiple 
times, as Nancy indicated, and the instructions are on there so 
they don't get lost.
    Mr. Walden. That is why they are glued on there?
    Mr. Dwyer. Correct.
    Mr. Walden. Okay. Thank you, Mr. Chairman. I know I have 
exceeded my time. Thanks for your courtesy.
    Mr. Stupak. I thank you, Mr. Walden.
    Mr. Braley for questions.
    Mr. Braley. Mr. Dwyer, I want to follow up that last 
comment you made, manufacturers of these products are 
incredibly responsible. You stand by that statement?
    Mr. Dwyer. I do.
    Mr. Braley. In the statement you submitted, it indicates 
that your manufacturers association has grown to include more 
than 250 member companies in the United States, Canada and 
Mexico, and that these companies manufacture and/or import 
infant products. So do you have members that are manufacturers 
in China and Vietnam?
    Mr. Dwyer. No, we do not.
    Mr. Braley. Okay.
    Mr. Dwyer. That actually are manufactured in the country or 
manufacture in those countries.
    Mr. Braley. Right, but my point is, since you have the word 
``import'' in there I assume some of your members are importing 
products that are being manufactured, and that is who the 
manufacturer is you are referring to when you said 
manufacturers are incredibly responsible?
    Mr. Dwyer. The manufacturers that are members of the 
association must have a place of business in North America but 
yes, some of them do manufacture their products overseas or 
import their products from overseas.
    Mr. Braley. Right, and isn't it customary that the 
inspections that you rely upon are done at the point of 
manufacturing?
    Mr. Dwyer. The inspections for the certification program?
    Mr. Braley. Yes.
    Mr. Dwyer. They are done both domestically and overseas.
    Mr. Braley. Okay. And you are aware that it is much more 
difficult to ensure the integrity of those inspection processes 
when they are being done in a country like China which has very 
strict controls on access?
    Mr. Dwyer. Our members take great care to visit with their 
factories overseas every year and to make sure that quality 
control practices are taking place at the highest levels.
    Mr. Braley. Have you ever tried to serve a Chinese 
manufacturer of a defective product that is marketed in the 
United States?
    Mr. Dwyer. Serve?
    Mr. Braley. Serve for legal process.
    Mr. Dwyer. No, I have not.
    Mr. Braley. Do you know what is involved in that process?
    Mr. Dwyer. I do not, sir.
    Mr. Braley. Do you know that international treaties have to 
be complied with and that service has to be performed 
domestically through the Chinese government that erects 
roadblocks that can prolong the actual accountability of 
foreign manufacturers who are selling defective products in 
this country for years and years if you are ever successful?
    Mr. Dwyer. I am not familiar with that process, sir.
    Mr. Braley. Are you aware that certain States like my home 
State of Iowa have domestic laws that provide immunity to 
sellers of products like some of your members if the 
manufacturer is accountable and can be served and that may put 
you into this endless limbo of trying to get service in a 
country that doesn't want its manufacturers to be served? And 
that is exactly what Representative Sutton is talking about in 
this bill she is about to introduce. Are you familiar with that 
problem from your work with these many people selling products 
that affect infants' lives and safety in this country?
    Mr. Dwyer. No, sir, but, you know, our program is built 
with safety in mind and we have testing. We have multiple 
testing. We had multiple testing before the Consumer Product 
Safety Improvement Act was even implemented. Our program, 
section 104, the requirements of certification, are more robust 
and they mirror what this Congress, what this committee has put 
together. I am not familiar with the challenges with serving 
Chinese manufacturers with, you know, warrants for defective 
products but we are here to talk about our certification 
program, the ASTM standards.
    Mr. Braley. Well, in your certification program, have you 
ever encountered incidents where the instructions on assembly 
are written in that country of origin, in some form of English 
that would not make sense to anybody in this room and yet is 
being used by the manufacturer and the subsequent seller of 
that product as a guide for people in assembly of that product. 
Are you aware that takes place?
    Mr. Dwyer. There is pretty clear guidelines both at the 
voluntary and the mandatory level for the standards that 
dictate how the instructions should be put together, and I am 
not aware that there are issues with communication on the 
instructions. It is an issue that the group is working on and 
looking at adding some additional warnings and looking at 
instructions. Eliminating moving parts would help with any 
disassembly issues, but I am not aware that there are any 
issues with instructions, sir.
    Mr. Braley. As part of your certification requirement, do 
they look at the assembly instructions being supplied by the 
manufacturer?
    Mr. Dwyer. Yes, they do.
    Mr. Braley. And do they look at whether or not the language 
that is being used is in plain English that can be easily 
understood and adapted by the consumer in the assembly of that 
product?
    Mr. Dwyer. Well, the product and the certification program, 
the product has to be assembled to the manufacturer's 
instructions and so that is a requirement.
    Mr. Braley. Well, and that is my point. My point is, the 
manufacturer in the latest recall is located in China, located 
in Vietnam, and they sometimes have a very different 
understanding of the English language than American consumers 
putting that product together. I am not just taking about from 
a professional standpoint. I am talking from the standpoint of 
a parent who has assembled many of these products and is 
frequently mystified by what the intention is in the assembly 
process because it is obviously being written by somebody who 
doesn't live in this country.
    Mr. Dwyer. Are you specifically talking about the Dorel 
recall, the Dorel Asia recall?
    Mr. Braley. Yes.
    Mr. Dwyer. Six hundred and thirty-five thousand units?
    Mr. Braley. Yes.
    Mr. Dwyer. Which are not JPMA certified, and I am well 
aware of extenuating circumstances in that case where that crib 
was put together with duct tape by parents, and criminal 
charges were charged against those parents for endangering 
their child.
    Mr. Braley. And I would like to bring that up before I 
close, Mr. Chairman, because what happens in these cases is 
everybody engages in finger pointing, and one of the first 
people on the line are the parents dealing with the tragic loss 
of their child who are frequently blamed and subject to 
criminal prosecutions which are many times later dropped, and I 
think that it is important that if there are manufacturers 
profiting from the sale of these products, they take a good 
look in the mirror and do everything they can to address the 
problem, not always blame the parents, and that is why this 
work we are here for today is so important, and I yield back.
    Mr. Stupak. Thank you, Mr. Braley. It should be noted too 
in that case where the parents, charges were brought, they were 
dropped, and so just so the record is clear.
    Mr. Burgess, when he comes back, I will reserve his spot. 
So I guess we are to Ms. Schakowsky for questions.
    Ms. Schakowsky. I want to talk a little bit more about the 
role of parents. In November of last year, we talked about 
this, but the CPSC and Stork Craft recalled more than 2 million 
cribs due to reports of broken or missing drop-side hardware. 
As part of that recall, Stork Craft crated an instructional 
video and posted it on YouTube--and so whoever is working on 
that, let us get it up there--to show consumers how to identify 
problems with their cribs and how to install the repair kits 
the company supplied, so if you will play that.
    [Video playback]
    Ms. Schakowsky. So let me ask you, Ms. Cowles, it is 
responsible or realistic, rather, to expect that parents will 
follow this recommendation in the real world?
    Ms. Cowles. No, I don't think any parent does that every 
time they put a baby in a crib any more than you open your hood 
and check everything before you get in your car to drive. It is 
certainly something that we might expect them to do 
occasionally but no, I think parents assume they put together a 
crib, it is going to stay together.
    Ms. Schakowsky. Mr. Dwyer, do you think that a tired mother 
or father, baby wakes up at 2:00 in the morning and you put the 
baby back in bed is going to go around and do a crib inspection 
every time before putting the baby back to sleep?
    Mr. Dwyer. Having been a very tired father at one time, no, 
ma'am.
    Ms. Schakowsky. So Mr. Dwyer, the JPMA put together a 
frequently asked questions page about drop-side cribs. It is on 
tab 10 of the document binder. And here is what your 
association FAQ sheet says: ``JPMA reminds parents and 
caregivers that when you assemble a crib to the manufacturer's 
instructions and use it properly, a crib provides the safest 
sleeping environment for a baby.'' What do you mean by--what 
does JPMA mean by use it properly?
    Mr. Dwyer. That it is assembled according to the 
manufacturer's instructions.
    Ms. Schakowsky. And inspected every time, right?
    Mr. Dwyer. We would recommend that parents be aware that 
inspection may be needed and we also have safe sleep guidelines 
for what not to put in the crib that is part of the whole 
process such as heavy blankets or pillows or that type of 
thing.
    Ms. Schakowsky. Stork Craft's CEO Jim Moore issued a 
statement after the November recall in which he asserted that 
parents improperly used the drop-side cribs implicated in 
infant entrapments. Here is how the news accounts quoted Mr. 
Moore: ``In the majority of instances, the cribs were being 
used with broken parts, parts with pieces missing, parts that 
were damaged or with modified or homemade parts.'' So Ms. 
Cowles, what do you think of the Stork Craft response?
    Ms. Cowles. Well, I think that it is particularly damaging 
to the recall process, that when manufacturers come out, and as 
Mr. Dwyer has done here, continue to blame the individual 
parent whose child either has died or was hurt. It basically 
says to every other parent using that crib, oh, I am sure you 
don't need to worry about your crib because you are a smart 
parent who is using it correctly, and so I think that kind of 
language, especially after the CPSC has to spend time 
negotiating what is in the press release and they come to an 
agreement of what is going to be said about it, then the 
company comes out later that day or the next day with those 
kind of damaging comments I think again both discourages 
parents from participating with the recall because they think 
theirs must be okay because they obviously put it together 
right and downplays the problem. I mean, all that list of 
things, if that crib wasn't falling apart, parents wouldn't 
have to do any of those things, so it is the crib, I think, 
that we are here to talk about and not how individual parents 
may decide to fix the problem when their crib does in fact 
break.
    Ms. Schakowsky. And Mr. Dwyer, what were you saying kind of 
I felt sort of self-righteously about how these parents were on 
the Dorel Asia cribs charged with criminal negligence or 
whatever it was.
    Mr. Dwyer. I just wanted to clarify for Mr. Braley that 
those products were not certified by the association and that I 
was aware, made aware that there were extenuating 
circumstances, that that crib, that there were photos of the 
crib that showed duct tape holding the pieces of the crib 
together, and that one side was broken from the crib and had 
been pushed against the wall, and I was aware that criminal 
charges had been brought for child endangerment, and also there 
were drug charges. I was not aware that those charges had been 
dropped but I was specifically addressing we do not want those 
cribs that were recalled lumped into because they were not 
certified by the association.
    Ms. Schakowsky. Did you want to comment, Ms. Cowles?
    Ms. Cowles. I just wanted to say about the charges, I know 
that is not why we are here today but having worked with many 
parents whose children have been killed, more times than you 
can imagine, that is at least threatened or brought before the 
medical examiner can ascertain that the product itself was 
defective, so I have had parents charged with that, with child 
abuse, with all kinds of things. And so the initial charge made 
by the police is no indication of what is actually responsible 
for that child's death, especially in a case like this where 
the charges are dropped.
    Ms. Schakowsky. Thank you.
    Mr. Stupak. Ms. Sutton for questions, please.
    Ms. Sutton. Thank you, Mr. Chairman, and I want to follow 
up on two things. First of all, Representative Braley's line of 
questioning about foreign manufacturers, and I just want to 
invite all of our colleagues to seriously consider getting on 
this bill--it is a bipartisan bill--to make sure that we can 
serve process and submit people who are selling products in 
this country to the jurisdiction of our courts and the 
enforcement of our laws. That is what I think the American 
people expect, and those are the consumers. Your customers are 
infants with parents, and they are counting on us to deliver a 
degree of safety.
    But I also want to follow up with Ms. Schakowsky's line of 
questioning because I think this idea of parental error versus 
product defect is an important one, and along the same lines, 
in September of 2007, CPSC recalled more than a million 
Simplicity-brand drop-side cribs in one of the many recalls 
involving this company, and the CPSC noted that some consumers 
installed the drop side unintentionally down, upside down. In 
this situation, the drop side would function upside down, it 
would function that way, and it would weaken the hardware and 
in some cases detach from the crib. The Stork Craft drop-side 
cribs recalled last year had the same problem, had similar 
problems. So Stork Craft asserts that this drop-side problem is 
not the company's fault. In a Stork Craft position paper 
provided to the committee located at tab 8 in the document 
binder, the company states, and I quote, ``It is absolutely 
unreasonable to expect Stork Craft to reasonably foresee that a 
consumer would install the drop-side rail upside down.'' Mr. 
Dwyer, do you agree with Stork Craft's statement? It is 
unforeseeable that a consumer might improperly install the drop 
side upside down when the drop side will still function that 
way?
    Mr. Dwyer. I am not intimately familiar enough with the 
product. Obviously if the product is manufactured in such a way 
that it could be installed upside down, as was the case with 
this product, that that would be the case.
    Ms. Sutton. I don't understand your answer.
    Mr. Dwyer. Your question was, is it foreseeable for that 
product, for that rail to be installed upside down. Apparently 
that is the case, that it is--it was not--it is foreseeable if 
it can be installed upside down.
    Ms. Sutton. So you disagree with Stork Craft's statement 
that it is unreasonable to expect that to be foreseen?
    Mr. Dwyer. I would say based upon the information, the 
limited information I have about the specific product as I read 
it here, I would say that I would disagree with that statement.
    Ms. Sutton. Thank you.
    And Ms. Cowles, I understand that you were a part of a task 
group assigned to examine the improper drop-side installation 
after the Simplicity recall. Is that correct?
    Ms. Cowles. That is right.
    Ms. Sutton. Okay. And the Consumer Product Safety 
Commission produced an e-mail to the committee, which is 
located at tab 1 of the document binder, and it relates to this 
issue. This is an e-mail chain between you, Jonathan Midget of 
CPSC and other members of the group tasked with looking at 
improper assembly of drop sides. Dr. Midget, who is an 
engineering psychologist, comments as follows: ``The best way 
to prevent misassembly is to limit the consumer's ability to 
put parts in the wrong place. The least effective strategy is 
to modify the instructions or create a list of warnings.'' To 
his workers at CPSC, Dr. Midget notes in an e-mail that the 
crib industry has been, and I quote, ``freakish in its 
insistence that instructions of cribs are at fault. This only 
makes sense if you don't want to change any of the shapes of 
your crib hardware and would rather blame the consumer.'' Ms. 
Cowles, is this observation consistent with your experience 
negotiating crib safety standards?
    Ms. Cowles. I think that this is very consistent both with 
my experience on the committee. I think I mentioned in my 
longer testimony that the committee will not even look at 
incidents that happen in cribs older than 5 years old, even 
though as we heard from the family, that could have easily been 
a crib that was just in one place and not reassembled, because 
they consider it old. They are very quick to blame when they 
account things to what the consumer did rather than to their 
crib, and again, I think as I said today, that if a product is 
made so you can put it together in a way that causes death, 
that is a design problem, not a consumer problem.
    Ms. Sutton. Thank you, Ms. Cowles, and I appreciate again, 
Mr. Chairman, that you are holding this hearing. These e-mails 
illustrate the risk of relying on voluntary industry safety 
standards, and I yield back.
    Mr. Stupak. Thanks. If I may, just one question or two. I 
think Mr. Burgess will be here in a minute. Let me just ask 
this. Mr. Dwyer, I asked about this ad that you put out saying 
that you certify products.
    Mr. Dwyer. Yes, sir.
    Mr. Stupak. And we talked about recalls. Do you ever take 
out similar ads in the same magazines advertising there has 
been a recall, like on the cribs?
    Mr. Dwyer. I am sorry. I didn't understand the question.
    Mr. Stupak. Does your association, the Juvenile Products 
Manufacturers Association, you put out these ads advertising 
these products, that they are certified safe. Then when they 
are recalled, do you ever take out an ad saying these things 
have been recalled so consumers would know?
    Mr. Dwyer. No, we don't name specific products and put ads 
for a recall in any magazine.
    Mr. Stupak. But wouldn't that be a good idea?
    Mr. Dwyer. I believe that is the role of the agency. We 
can, you know, communicate. We issued statements and we 
provided statements based upon when the Stork Craft products 
were recalled to help parents and concerned consumers 
understand the implications. We link to recall.gov on our 
website. We----
    Mr. Stupak. So other than your website, that is all you do 
to let parents know that----
    Mr. Dwyer. We do not take out ads in magazines to promote 
the fact that products are recalled. This is part of a product 
safety campaign that involves multiple communication----
    Mr. Stupak. Sure. These are all products with your seal on 
it so if your seal products are being recalled, I would think 
you want to let people know that, target these audiences.
    Mr. Dwyer. We do communicate but we don't take out ads in 
magazines.
    Mr. Stupak. Okay. I would like to thank this panel for 
their testimony. Thank you, witnesses, and thanks for being 
here. As Mr. Walden reminds me, we are going to have votes here 
pretty quick, so let us see if we can't finish up this hearing. 
I will ask the chairperson to come forward, please, the Hon. 
Ms. Tenenbaum of the Consumer Product Safety Commission. Let 
the record reflect that before you have your opening statement, 
it is the policy of this committee that you have the right 
under the rules of the House to be advised by counsel during 
your testimony. Do you wish to be represented by counsel?
    Ms. Tenenbaum. No, sir.
    Mr. Stupak. And then Ms. Tenenbaum, I would ask you as the 
chairperson of the Consumer Product Safety Commission to take 
the oath, please. Raise your right hand.
    [Witness sworn.]
    Mr. Stupak. Thank you. Let the record reflect Ms. Tenenbaum 
is under oath, and please present your opening statement.

TESTIMONY OF THE HON. INEZ MOORE TENENBAUM, CHAIRMAN, CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Ms. Tenenbaum. Good morning, Chairman Stupak, Ranking 
Member Walden and members of the Subcommittee on Oversight and 
Investigation.
    The overall safety of cribs is a critical concern of the 
CPSC and a personal priority of mine. Getting unsafe cribs off 
the market and out of the home has always been a key part of 
the CPSC's mission, but I strongly believe that we must do more 
and have strong federal safety standards that prevent cribs 
with design flaws or safety defects from ever making it into 
the stream of commerce or into nurseries.
    Since the inception of the agency in 1973, the CPSC has 
been deeply involved in issues of crib and infant sleeping 
environment safety. In November 1973, the Commission 
promulgated the first mandatory safety standard governing full-
size cribs. Since that time, the CPSC has also worked 
diligently with other standards-developing organizations such 
as the ASTM International on voluntary cribs standards. These 
mandatory and voluntary standards combined with substantial 
outreach efforts have undoubtedly prevented numerous infant and 
child injuries.
    However, one question that has arisen in some media reports 
is the issue of why the CPSC's mandatory crib standards have 
not been revised since 1982. The main answer is that the 
Commission has limited authority to do so under section 9 of 
the Consumer Product Safety Act. Under that section, which was 
revised by the CPSIA, the Commission was generally required to 
rely on voluntary standards that would likely result in the 
adequate reduction of risk and injury and where there would be 
substantial compliance with the standard. This reliance on 
voluntary standards worked well in many areas but it also left 
some substantial gaps that voluntary-standard-developing 
organizations were either unwilling or unable to confront. This 
provision was modified by the CPSIA to give the Commission 
additional authority to promulgate rules, even when a voluntary 
standard is in existence.
    In addition, the CPSIA also included section 104, the Danny 
Keysar Child Product Safety Notification Act, which directs the 
Commission to promulgate new standards for 12 groups of durable 
infant and toddler products. I strongly support these 
additional authorities and have directed the CPSC staff to make 
crib safety a key priority starting with immediate recall of 
cribs that have been shown to present a substantial risk of 
danger and injury to children.
    One example of the Commission's efforts to remove 
potentially hazardous cribs from the marketplace has been the 
two recent recalls of Stork Craft drop-side cribs. In January 
2009, Stork Craft agreed to voluntarily recall over half a 
million impacted cribs due to a bracket defect. At that time 
the CPSC was also investigating instances regarding a potential 
drop-side issue with the cribs. These incidents, however, 
involved a large population of cribs with different styles of 
drop-side hardware and a different mode of drop-side failure.
    After my arrival at the Commission, I requested weekly 
Commission briefings from the Office of Compliance on pending 
consumer product investigations. The subject of the September 
24, 2009, briefing was nursery products and included the 
Commission's investigation into drop-side cribs. During that 
briefing, I learned about the developing compliance case 
regarding Stork Craft drop-side cribs as well as the tragic 
June 2009 death in Louisiana that involved a Stork Craft drop-
side crib. Following this briefing, I directed the staff to 
give immediate priority to the recall of Stork Craft cribs and 
this drop-side hazard. On November 23, 2009, the Commission and 
Stork Craft announced the largest crib action recall in CPSC 
history, and as you know, this involved 2.1 million Stork Craft 
cribs.
    We also recently recalled the Dorel Asia cribs, which I 
will not go into detail to save time because you are very well 
aware of that recall.
    Now, since these recalls, and since my tenure as chairman, 
I have decided that we need a new safe sleep initiative, which 
has six points that I want to talk to you about. In my brief 
statement this morning, I will just talk about the highlights 
and then you can ask me questions later.
    I think the CPSC has very talented staff that has worked 
diligently for years on these issues of safe cribs but I also 
think that we could have for a variety of reasons including 
funding, inadequate statutory authorities and competing 
priorities move quicker to have mandatory and stronger 
voluntary standards and I want you to know and make very clear 
to this subcommittee that those days are over at the CPSC. This 
morning I am pleased to announce the details of the Safe Sleep 
Initiative.
    First of all, you have heard from other speakers that the 
first part of this initiative is to expedite the rulemaking and 
have mandatory standards under section 104 for cribs, and I 
might want to add that when I came to the Commission, the 
schedule for this rule for cribs was scheduled for 2012. When I 
learned about it, I pulled it in front of other rules and said 
we have to have this standard now. Second, we are going to 
expand the Commission's successful early warning system by 
having an early warning team for bassinets, cribs and other 
sleep environments for children. Three, we will also increase 
the monitoring of recall effectiveness and corrective actions 
on take rates on crib recall cases. We want to know how 
effective are these recalls. Fifth, we are going to continue 
with our additional media outreach. For example, when we 
recalled Stork Craft, we estimated that 200 million people saw 
the television clips of those recalls. And sixth, we are going 
to have an internal management review of how we do recalls not 
only for cribs but for other products. When I came to the 
Commission, I realized that the Commission needed a new 
strategic plan. It also needed consultants from the outside to 
come in and look at the operations and the management of that 
agency, so we went through the procurement process and I am 
pleased to announce that just recently we have secured Booz 
Allen Hamilton to do a top-to-bottom review of the CPSC and 
help us in this area.
    And Mr. Chairman and Ranking Member Walden, I thank you for 
having this meeting. It is very important that you show 
everyone involved in crib safety how important it is to you, 
and I look forward to answering your questions.
    [The prepared statement of Ms. Tenenbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.029
    
    [GRAPHIC] [TIFF OMITTED] T6004A.030
    
    [GRAPHIC] [TIFF OMITTED] T6004A.031
    
    [GRAPHIC] [TIFF OMITTED] T6004A.032
    
    [GRAPHIC] [TIFF OMITTED] T6004A.033
    
    [GRAPHIC] [TIFF OMITTED] T6004A.034
    
    [GRAPHIC] [TIFF OMITTED] T6004A.035
    
    [GRAPHIC] [TIFF OMITTED] T6004A.036
    
    [GRAPHIC] [TIFF OMITTED] T6004A.037
    
    Mr. Stupak. Thank you, and let me thank you on behalf of 
the whole committee and our staffs for your work and 
cooperation in this area and also for being here all morning. 
You have sat through all the panels and we appreciate that, and 
we think that helps in what we are trying to achieve here.
    You said your Safe Sleep Initiative, that was starting 
today?
    Ms. Tenenbaum. We have already started it. It started 
really several weeks ago.
    Mr. Stupak. And part of that you said in your testimony, 
when Stork Craft announced a recall, that 200 million saw that.
    Ms. Tenenbaum. We went on every morning show to announce 
the recall and we are using all of our social media--Twitter, 
YouTube, CPSC 2.0, but we estimate over 200 million saw those--
had access to those television tapes.
    Mr. Stupak. When you do a recall here, especially like with 
Stork Craft, the 2 million that were recalled here in November, 
that is a voluntary recall, right?
    Ms. Tenenbaum. It is a voluntary recall, and----
    Mr. Stupak. And you have to convince the manufacturer to do 
it. You don't have authority to say that is it, we are 
recalling these cribs, correct?
    Ms. Tenenbaum. We could if we wanted to go into an 
administrative action, which would probably result in 
litigation and take more time, but the compliance officials and 
the lawyers at the CPSC have said to me, if we can get a 
voluntary recall, we can get the remedy to the consumer quicker 
and it takes less time, but you have to negotiate.
    Mr. Stupak. You have to negotiate. And if you look at tab 7 
there, I want to talk a little bit about that, because you 
asked to negotiate with the company that does not believe that 
their product is defective, right?
    Ms. Tenenbaum. That is correct. In fact, Stork Craft 
maintains to this day that the product is not defective.
    Mr. Stupak. Still maintains that even though we recalled 2 
million cribs in 2009. So if I look at tab 7, if I understand 
this correctly, starting on May 6, 2009, staff sent an e-mail 
to Stork Craft advising them to stop the sale of drop-side 
cribs, right?
    Ms. Tenenbaum. That is correct.
    Mr. Stupak. And then there is a number of entries in here 
about what staff was doing, conversations, discussions, and 
that wasn't really completed until about October 9. Stork Craft 
submits a press release and then you have negotiations of the 
press release begins.
    Ms. Tenenbaum. That is correct.
    Mr. Stupak. So it takes you about 6 months to convince them 
to do a recall, correct?
    Ms. Tenenbaum. It just depends on the circumstances.
    Mr. Stupak. But in this one it took about 6 months?
    Ms. Tenenbaum. It took about 6 months.
    Mr. Stupak. And then why do we begin negotiations of a 
press release? That is October 9th, and it is my 
understanding--again, I have another whole page of all the 
entries that went through in trying to negotiate a press 
release on a recall which infant children possibly died because 
of defects in these cribs, and that takes us to press release 
issuance of October--excuse me--November 24. So that is another 
6 weeks. You negotiate 6 weeks for a press release.
    Ms. Tenenbaum. That is correct. We negotiate every word of 
that press release. We are required to under 6B with the 
company. Now, 6B under the CPSIA was amended which gives us 
more flexibility but we negotiate press releases, and----
    Mr. Stupak. Six weeks here. You know, being where I am sit, 
and maybe I am a little skeptical, but this is sort of like the 
Christmas season. That is when people are buying things. Do you 
think part of the negotiations is to drag out the press 
release, a 1-page press release for 6 weeks, is to get into the 
Christmas season to sell more cribs that are defective that are 
being recalled?
    Ms. Tenenbaum. Well, I have asked my staff why it takes so 
long, once you have made the decision for recall, why it takes 
6 weeks, and that is the standard procedure, the standard 
amount of time, and they produced a document for me with 
everything that has to be done, particularly if you are going 
to do a recall repair. You have to manufacture the repair, you 
have to test it, and then inside the company, in Stork Craft 
Company, you know, those decisions, if you are talking to 
someone, they have to run it all the way up to the CEO or 
whomever is at the level to make the decision, but it is the 
truth. I mean, it takes an inordinate amount of time, and all 
during this time the consumers don't know that their crib needs 
a repair kit.
    Mr. Stupak. Correct, and then even after you do the recall, 
now this is well over 6 months from when we started this 
process and 6 weeks to get a press release out, but then now on 
top of that they have another 6 months they can sell the 
product to the American people, right? Don't they have another 
6 months?
    Ms. Tenenbaum. No, we stop sale.
    Mr. Stupak. Pardon?
    Ms. Tenenbaum. Once the recall is announced, we stop sale. 
In fact, the retailers have a way to in their computers put the 
serial number of the product and it stops----
    Mr. Stupak. I thought from Mr. Dwyer, I thought we had 
another 180 days after that. Maybe I misunderstood.
    Ms. Tenenbaum. No, after the--at the recall, it stops sale.
    Mr. Stupak. That is the certification, I guess. Okay. I had 
it wrong. Why does it take so long? I mean, you had a number of 
recalls. In fact, you had one Tuesday here, 635,000 more cribs. 
Why does it take so long? Why does it take 6 months?
    Ms. Tenenbaum. Well, it shouldn't take 6 months, and that 
is why under our Safe Sleep Initiative, we are going forward 
going to have a safe sleep team where everyone works together, 
the compliance officers, the attorneys, the epidemiologists, 
the engineers so that we can all work together to move a case 
forward quicker. I think 6 months personally is too long. And 
you can also if the company is not cooperating and keeps 
insisting, you know, they shouldn't have a recall, we can issue 
a unilateral press release, which we have threatened to do. I 
have also told our staff, use every enforcement power you need 
to move cases forward; don't let a company push back on you if 
you have the science and the engineering complete and you know 
this is a product that needs to be recalled. So they know that 
leadership is behind them in these recalls. We also have 
instituted since I came to the Commission where once a week all 
five commissioners meet and we have weekly compliance 
briefings, and then we have monthly compliance briefings so we 
know the status of cases and can give the staff our thoughts on 
how urgent we think these recalls are.
    Mr. Stupak. Well, hopefully the next time the press release 
doesn't take 6 weeks. Six hours should be enough. If not, you 
can issue a unilateral one.
    Mr. Walden for questions, please.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Now, Chairman, I thought I heard you say you have the 
authority at CPSC to unilaterally issue a press release.
    Ms. Tenenbaum. That is if the company does not cooperate.
    Mr. Walden. Okay. So----
    Ms. Tenenbaum. And we have threatened that.
    Mr. Walden [continuing]. What the chairman is talking 
about, a 6-week delay in getting a press release, was the 
company not cooperating in that process?
    Ms. Tenenbaum. The company was at that point--they were 
cooperating once we told them we were going to do the recall 
but when it said 6 weeks, it is not really--I mean, there were 
other things going on in that period of time.
    Mr. Walden. And what other things were going on?
    Ms. Tenenbaum. Okay. I can give you the recall notification 
process. I can talk to you--I mean, first of all, you have to 
determine the scope of the product to be recalled. You have to 
request----
    Mr. Walden. And this is CPSC has to do this or the company?
    Ms. Tenenbaum. Yes, the Commission has to do this. You have 
to look--I mean, it is a 2-page-long or 3-page-long document of 
everything that has to occur before you can recall a case, and 
you have to make sure the 800 number and the website are 
operational. You have to test the kit. The company has to 
manufacture the kit, and----
    Mr. Walden. These are required by your rules?
    Ms. Tenenbaum. These are required to have a successful 
recall so that----
    Mr. Walden. In your rules, though, right? These are CPSC 
rules you are talking about?
    Ms. Tenenbaum. I don't know that they are rules, they are 
just procedures.
    Mr. Walden. But you control the procedures at CPSC?
    Ms. Tenenbaum. The Consumer Product Safety Commission, yes. 
We control it but we also have to make sure the recall is done 
appropriately.
    Mr. Walden. I fully concur with that, but I am just trying 
to get at this issue of why it took 6 weeks to get a press 
release out.
    Ms. Tenenbaum. Well, this was a staff member's notes, and I 
don't know if they----
    Mr. Walden. So you don't think those are accurate maybe?
    Ms. Tenenbaum. No, I am not saying that, Mr. Walden. I am 
saying that it might have reflected that it was going on 6 
weeks but we do have to negotiate every word. They might go up 
to their supervisor or to the CEO, come back to us and say we 
really dispute this death, so that was a good example. The 
death in the Dorel Asia case, the company felt like that we 
should not mention the death. So when you get in whether or not 
you are going to mention a death, the lawyers on both sides 
have to get into it. You have to do an investigation. So it can 
take 6 weeks. If we want to say no, we are going to list, say, 
four deaths, then you have to say in Stork Craft there were 
four deaths. You had to go back and make sure your facts were 
true on every death and----
    Mr. Walden. And do you think that is an unfair process?
    Ms. Tenenbaum. Do I think it is unfair? We have to make 
sure that it is correct.
    Mr. Walden. Right. I would concur.
    Ms. Tenenbaum. I think what I would like to see on the 
front end is for us now that we are going forward and we have 
our team that is going to be working together, I hope we can 
shorten the part of the point leading up to the recall.
    Mr. Walden. Do you think that the early warning system has 
been toothless? Do you think that has worked?
    Ms. Tenenbaum. The early warning system was formed after 
the Simplicity recall, and it puts together a team of people--
lawyers, compliance officers--to look at the data that is 
submitted to us.
    Mr. Walden. It tries to get everybody in your agency, 
right, to talk?
    Ms. Tenenbaum. Right. Earlier on, you mentioned--you asked 
me if--or you asked one of the Ciriglianos, you asked them if 
they had a duty to report, and they did not.
    Mr. Walden. No, that was the chairman who said that.
    Ms. Tenenbaum. Right, and that is one of the issues. We do 
not get reports sometimes until years after an incident has 
occurred and the sample is gone. So one of the issues that we 
were going to say in terms of improving the process which would 
take probably statutory authority is to require States to 
report events to us. Medical examiners' reports, we purchase. 
We work with other--we work voluntarily with hospitals. We have 
the NICE system. We have a number of ways. We go through press 
releases, newspapers. We do everything to find out about 
incidents but there is no duty to report from the State 
coroners or medical examiners.
    Mr. Walden. Thank you. That is helpful information to have 
as we go forward. I have just 45 seconds left here, and we have 
got votes on, so let me ask you this. Is it the industry trade 
group's duty to come up with these new standards, or if there 
is a gap in safety, is it CPSC's duty to put in mandatory 
standards? You have that authority. Your predecessors have had 
that authority. You can step in and put a standard in that says 
we are not going to have drop-side cribs or we are not going to 
have this type of manufacturing process, right?
    Ms. Tenenbaum. I think the ASTM should always have state-
of-the-art, robust standards for all the products.
    Mr. Walden. I agree.
    Ms. Tenenbaum. But I also see, when you see patterns of 
this kind of thing that go on for years, then it is time for 
the CPSC before it gets this late to have a mandatory standard, 
and that is why when I came to the Commission we started 
looking at the cribs. We changed the schedule so that this year 
we will have the mandatory standard. We asked the ASTM. I 
called them personally, got them on the phone, you need to work 
with us right now to have the best voluntary standard possible. 
They voluntarily said yes, we would love to work with you. They 
came and spent yesterday and the day before and worked all day 
long, and they have come to an agreement that we need to 
increase the wood quality. Now it is a 50-pound standard. They 
agreed to an 86-pound standard. We need to test the hardware, 
given the Canadian racking method. I understand that is 9,000 
times the hardware is put under stress to be tested. They 
outlawed wooden screws, and they also, you know, talked about 
other issues that would make the voluntary standard robust.
    Mr. Walden. Good. Thank you. Thank you for your work and 
thanks for your response to questions.
    Mr. Stupak. Thanks, Mr. Walden.
    Ms. Schakowsky for questions, please.
    Ms. Schakowsky. So let me get it clear. We are going to 
have a mandatory standard for cribs that will prohibit drop 
sides?
    Ms. Tenenbaum. Yes, ma'am, we will.
    Ms. Schakowsky. And when will that be?
    Ms. Tenenbaum. It will be 2010. We hope by early summer to 
have the NPR published in the Federal Register. We have to have 
75 days of comment and then we will have the standard by the 
end of the year. We are also pushing the ASTM to go ahead and 
adopt voluntary standards with this, and the good thing about 
having a mandatory standard that you put in the CPSIA is that 
it will be retroactive. It will cover cribs that are in public 
places like hotels and childcare facilities so that the drop 
side will be banned in the public places. But we still worry 
about cribs in homes that continue to have the drop side.
    Ms. Schakowsky. And in the meantime, how are we going to 
keep these cribs--are all of them with drop sides recalled?
    Ms. Tenenbaum. Well, we have recalled 6 million of them, 
and all these are voluntary recalls where we have repair kits 
and we have to keep continuing to educate people in the home 
who have cribs that there is a repair kit that they need to 
purchase and so it will still be in the home. And we also want 
to reach out to the minority communities through the 
neighborhood safety network, the minority outreach program. 
Also, we are looking at how we can communicate through every 
State agency that licenses childcare facilities so that we can 
send out e-mails to say don't use this brand crib, children 
have been injured or killed with these drop sides. So it is up 
to us to continue with our public information campaign.
    Ms. Schakowsky. But there still will be until--so after the 
75-day comment period, when are we going to say a ban on drop-
side cribs?
    Ms. Tenenbaum. Well, prospectively the ASTM has banned 
them, and I asked the director of DHS--well, I asked----
    Ms. Schakowsky. Ban the manufacture but not all of them 
have been recalled?
    Ms. Tenenbaum. I don't think every crib has been recalled.
    Ms. Schakowsky. Drop-side cribs.
    Ms. Tenenbaum. Drop side, but it is banned prospectively. I 
will have to get back with you on that. I know that----
    Ms. Schakowsky. But under CPSC, after the--what does that 
take us to? There is a 75-day comment period----
    Ms. Tenenbaum. I would hope by December to have our 
mandatory rule done, and I hope we can do it sooner. And the 
work that has been done the last 2 days by the ASTM should 
allow us to have information, plus the agency put out an ANPR 
in 2008, so we are going to try as fast as possible to have 
this done.
    Ms. Schakowsky. Okay. I want to get the letters right. The 
JP--what is it?
    Ms. Tenenbaum. JPMA?
    Ms. Schakowsky. Voted against having a mandatory standard, 
or what was it? I mean, I am trying to understand the 
relationship with the industry, and for a long time I have been 
concerned about the issue, for example, of these press 
releases, and I understand, of course, getting the accuracy but 
it doesn't take that long to figure out if someone has--if a 
child has died or four children have died, and the fact that 
the industry doesn't want that in a press release, who cares? 
Why do we have to negotiate that? Why should it take so long if 
this is a threat of life? Do we have to do more? How does our 
new Act, the Improvement Act, change the rule about these press 
releases?
    Ms. Tenenbaum. Well, I will give you an example. Just this 
week we recalled Dorel Asia and the Today show and other 
morning shows are very helpful to us and they say we will 
announce this so that people can get the word on this, and we 
had had it in the press release that a child had died. The 
people representing Dorel Asia were talking to Tom Castello up 
until right before he went on the air saying do not mention 
that death, and so that is how we have to deal with this, and 
he mentioned it because we asked him to.
    Ms. Schakowsky. Well, under the new Act, you said that 
there has been some improvements in that. What was improved?
    Ms. Tenenbaum. Well, the time under 6B. It just shortened 
the period of time. But still the negotiations about whether or 
not a death is, you know, because of the hardware or some fault 
of the consumer, and that goes back and forth and we have to be 
really hard about pushing forward that we are going to list 
this death.
    Ms. Schakowsky. I think we really have to do something 
about that, because don't you think that the impact of a 
statement where a death has occurred is much more powerful 
than----
    Ms. Tenenbaum. Yes. I mean, if parents know that your child 
can tragically die by being entrapped, they will go in that 
room and look at that crib immediately, we hope, or even when a 
child is injured and we can show parents, this is not something 
that you can fix yourself, please get the repair kit, and if 
the crib is in such bad shape, please do not use it.
    Ms. Schakowsky. Well, as far as I am concerned----
    Mr. Stupak. I have got to cut you off.
    Mr. Burgess, we have 2 minutes left to vote.
    Ms. Tenenbaum. Thank you, though, for bringing this up.
    Mr. Stupak. Mr. Burgess, questions, please.
    Mr. Burgess. Thank you, Mr. Chairman, and thank you, 
Commissioner, for being here today. I hope we have--I know we 
have a request in to your office to have a meeting. I hope we 
are able to have that soon.
    Mr. Chairman, I will also say, having taken a trip out and 
seen the testing facility at CPSC, I would encourage a field 
hearing at the testing facility sometime. I think it would be 
important for us to see how they do a good job with really 
sometimes some pretty rudimentary tools, and if we behave 
ourselves that day, they will even let us test some of the toys 
if we promise not to break them.
    Now, I am a little confused on the--that you have banned 
the manufacture of drop-side cribs. Is that correct?
    Ms. Tenenbaum. ASTM has.
    Mr. Burgess. ASTM has?
    Ms. Tenenbaum. And we will put that in our mandatory 
standard.
    Mr. Burgess. Who needs to ban the import? Because a drop-
side crib could still be imported by a retailer.
    Ms. Tenenbaum. Well, what the ASTM is a voluntary standard 
and they are saying in the standard, which they voted on in 
December of 2009, that it will no longer meet standards if it 
is drop side. But, you know, we will have a rule this year, and 
I don't want to whine but I want to tell you that we have had 
48 Federal Register notices since the passage of the CPSIA. 
There are so many rules under that we pushed forward that that 
is why it takes a while to finish these rules, but anyway, I 
got you off your train of thought. I am sorry.
    Mr. Burgess. Well, some of the things we have been through 
before with the lead-up to the CPSIA was the problem that we 
have with stuff that is made overseas, read China, and then 
brought to this country that doesn't meet our standards. If we 
decided that it is the design of the drop-side crib that is the 
problem, then it doesn't matter where it is made, in my 
opinion. If it is made overseas, then we should not allow its 
import. Now, what do we have to do with the World Trade 
Organization and all of our treaties and border stuff, what do 
we do to keep those cribs from coming in and being sold in 
retail outlets in this country?
    Ms. Tenenbaum. If we ban the drop side, we could stop it at 
the port.
    Mr. Burgess. Have we banned it?
    Ms. Tenenbaum. We will in the rule.
    Mr. Burgess. Which is going to happen when?
    Ms. Tenenbaum. In 2010 we are going to finish that. It was 
originally scheduled for 2012 and we have expedited that to 
move it up to 2010.
    Mr. Burgess. Yes, the notes I have from the U.S. Consumer 
Product Safety Commission, Office of General Counsel, required 
actions pursuant to the Consumer Product Safety Improvement Act 
of 2008, and this is dated September 2008, that we would do 
this by August of 2009, so I guess that slipped a little bit?
    Ms. Tenenbaum. I guess it did. We did the durable nursery 
equipment items, there were 12 of them, baby baths and baby 
walkers.
    Mr. Burgess. Shouldn't cribs have been up at the top of 
that list of 12?
    Ms. Tenenbaum. Cribs, in my opinion, yes. That is why I 
have expedited it.
    Mr. Burgess. So we on this committee can expect you to 
issue a mandatory ban on drop-side cribs sometime in 2010?
    Ms. Tenenbaum. Yes, sir, and that will be retroactively 
applied for cribs in public places such as childcare facilities 
and hotel rooms but it won't apply to bans in homes, so the 
consumer would still have it under section 104.
    Mr. Burgess. Well, if they had existing ones, but will they 
still be able to go to a retail outlet and purchase one?
    Ms. Tenenbaum. No.
    Mr. Burgess. Would a retailer be able to import one for 
sale?
    Ms. Tenenbaum. No, not after we say that they don't meet 
the standards.
    Mr. Burgess. So we will be able to stop those at the 
border?
    Ms. Tenenbaum. Yes, sir.
    Mr. Burgess. Let me just ask you, one of the things we 
struggled with during the run-up to the bill in 2008 was the 
funding and personnel levels at the CPSC. Where are we with 
that now?
    Ms. Tenenbaum. Well, we are at the level of having 530 
FTEs, full-time equivalents, and we now employ as of today 479. 
So we are--but we have 45 recruitments in the process of being 
hired, and it is our goal to be at the top of the 530 this 
year.
    Mr. Burgess. Now, we were given--both Nancy Nord and Mr. 
Moore felt that the funding levels we were providing CPSC in 
past years were not satisfactory. Those were increased. What 
actions are you taking now? We are going to be in a tough 
budget yet. Guess what? It is going to be real tough. And yet 
this is one of the more important functions but still very low 
on the totem pole of things that get funded. So what actions 
are you taking now to ensure that your funding does not slip?
    Ms. Tenenbaum. Well, when we--I go and meet personally with 
OMB and I go myself, just talk to them about how important it 
is to be able to implement the CPSIA and other statutes. I ask 
them to hold our agency harmless. And so I have said, you know, 
$10 million to the CPSC is a tremendous amount. Ten million 
dollars to a mega agency would not have the same effect. And we 
keep demonstrating to them how we are using it. Also with Booz 
Allen Hamilton, which is the company that is going to be doing 
a management, operational and strategic plan for us, they will 
be looking at what additional resources we need or how we use 
existing resources to accomplish our goal, which is keeping 
consumers safe.
    Mr. Burgess. Well, I would just say, don't forget you have 
friends on this committee if the appropriators aren't treated 
you squarely.
    Thank you, Mr. Chairman. I know we have got to go vote.
    Ms. Tenenbaum. And thank you, Mr. Burgess.
    Mr. Stupak. Thank you. That concludes all questioning. 
First I ask unanimous consent Mr. Waxman's opening statement 
and the attachment from the Consumers Union be made part of the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Stupak. And that concludes all questioning. I want to 
thank our witnesses for coming today and for their testimony. 
The committee rules provide that members have 10 days to submit 
additional questions for the record. I know there are questions 
as to manufacturers have a duty to report deaths and injuries, 
and after you do a recall, we have seen going in the stores, 
there is no notification. So there are going to be other 
questions. We will follow up probably with you, Madam 
Chairperson.
    So I ask unanimous consent that the contents of our 
document binder be entered into the record provided that the 
committee staff may redact any concerns about privacy, business 
proprietary or other law enforcement-sensitive issues. Without 
objection, documents will be entered in the record.
    That concludes our hearing. This meeting of the 
subcommittee is adjourned. Thank you all for being here.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6004A.041
    
    [GRAPHIC] [TIFF OMITTED] T6004A.042
    
    [GRAPHIC] [TIFF OMITTED] T6004A.043
    
    [GRAPHIC] [TIFF OMITTED] T6004A.038
    
    [GRAPHIC] [TIFF OMITTED] T6004A.039
    
    [GRAPHIC] [TIFF OMITTED] T6004A.040
    
    [GRAPHIC] [TIFF OMITTED] T6004A.044
    
    [GRAPHIC] [TIFF OMITTED] T6004A.045
    
    [GRAPHIC] [TIFF OMITTED] T6004A.046
    
    [GRAPHIC] [TIFF OMITTED] T6004A.047
    
    [GRAPHIC] [TIFF OMITTED] T6004A.048
    
    [GRAPHIC] [TIFF OMITTED] T6004A.049
    
    [GRAPHIC] [TIFF OMITTED] T6004A.050
    
    [GRAPHIC] [TIFF OMITTED] T6004A.051
    
    [GRAPHIC] [TIFF OMITTED] T6004A.052
    
    [GRAPHIC] [TIFF OMITTED] T6004A.053
    
    [GRAPHIC] [TIFF OMITTED] T6004A.054
    
    [GRAPHIC] [TIFF OMITTED] T6004A.055
    
    [GRAPHIC] [TIFF OMITTED] T6004A.056
    
    [GRAPHIC] [TIFF OMITTED] T6004A.057
    
    [GRAPHIC] [TIFF OMITTED] T6004A.058
    
    [GRAPHIC] [TIFF OMITTED] T6004A.059
    
    [GRAPHIC] [TIFF OMITTED] T6004A.060
    
    [GRAPHIC] [TIFF OMITTED] T6004A.061
    
    [GRAPHIC] [TIFF OMITTED] T6004A.062
    
    [GRAPHIC] [TIFF OMITTED] T6004A.063
    
    [GRAPHIC] [TIFF OMITTED] T6004A.064
    
    [GRAPHIC] [TIFF OMITTED] T6004A.065
    
    [GRAPHIC] [TIFF OMITTED] T6004A.066
    
    [GRAPHIC] [TIFF OMITTED] T6004A.067
    
    [GRAPHIC] [TIFF OMITTED] T6004A.068
    
    [GRAPHIC] [TIFF OMITTED] T6004A.069
    
    [GRAPHIC] [TIFF OMITTED] T6004A.070
    
    [GRAPHIC] [TIFF OMITTED] T6004A.071
    
    [GRAPHIC] [TIFF OMITTED] T6004A.072
    
    [GRAPHIC] [TIFF OMITTED] T6004A.073
    
    [GRAPHIC] [TIFF OMITTED] T6004A.074
    
    [GRAPHIC] [TIFF OMITTED] T6004A.075
    
    [GRAPHIC] [TIFF OMITTED] T6004A.076
    
    [GRAPHIC] [TIFF OMITTED] T6004A.077
    
    [GRAPHIC] [TIFF OMITTED] T6004A.078
    
    [GRAPHIC] [TIFF OMITTED] T6004A.079
    
    [GRAPHIC] [TIFF OMITTED] T6004A.080
    
    [GRAPHIC] [TIFF OMITTED] T6004A.081
    
    [GRAPHIC] [TIFF OMITTED] T6004A.082
    
    [GRAPHIC] [TIFF OMITTED] T6004A.083
    
    [GRAPHIC] [TIFF OMITTED] T6004A.084
    
    [GRAPHIC] [TIFF OMITTED] T6004A.085
    
    [GRAPHIC] [TIFF OMITTED] T6004A.086
    
    [GRAPHIC] [TIFF OMITTED] T6004A.087
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
